         SENSITIVE BUT UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




              Report of Inspection


Bureau of Democracy, Human
     Rights and Labor

 Report Number ISP-I-03-48, September 2003




                              IMPORTANT NOTICE

  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.




         SENSITIVE BUT UNCLASSIFIED
                           TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND POLICY OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     The Bureau Performance Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
     DRL Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Policy and Program Direction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Human Rights and Multilateral Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     International Religious Freedom . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     Internal Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     Morale . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     The Office of Executive Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     Equal Employment Opportunity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     Compliance Follow Up Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
CORE FUNCTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
     Efforts and Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
     Office for the Promotion of Human Rights and Democracy . . . . . . . . . . 14
POLICY DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
      Program Unit Functions: Grants Processing . . . . . . . . . . . . . . . . . . . . . . . . 17
      Program Unit Functions: Program Evaluation . . . . . . . . . . . . . . . . . . . . . . 19
      Office of Strategic and External Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
      Office of Country Reports and Asylum Affairs . . . . . . . . . . . . . . . . . . . . . 22
      Office of Multilateral Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
      Office of International Labor Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
      Coordination of Human Rights Conditionalities Regarding Economic, . . . .
        Financial, Assistance, and Trade Issues . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      Office of International Religious Freedom . . . . . . . . . . . . . . . . . . . . . . . . . 33
DIPLOMATIC READINESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
     Bureau Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
     People Management and Morale . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
           Office of the Executive Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     40
           Financial Management Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      43
           General Services Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                44
           Information Management Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        45
           Human Resources Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   46
           Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   49
           Equal Employment Opportunity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       49
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         51
    Travel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        51
    Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     52
    Time and Attendance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     53
    Performance Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       53
    Human Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              54
    Information Management Inventory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                55
LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70
                    SENSITIVE BUT UNCLASSIFIED




                            KEY JUDGMENTS


• Under the purposeful direction of the Assistant Secretary of the Bureau of
    Democracy, Human Rights and Labor (DRL), and with the support of De-
    partment of State (Department) senior leadership, the bureau is doing a good
    job in making the promotion of human rights and democracy an integral part
    of U.S. foreign policy.
• The bureau’s leadership has been successful in securing increased funding for
    its human rights and democracy promotion efforts and in giving these efforts
    greater strategic focus and impact. Grants and programs are generally well
    managed, but the bureau is aware that the recent rapid growth of programs
    has created a need for a more systematic monitoring and evaluation process.
• Despite some apprehensions, DRL’s expanded involvement in programming
    and grant making does not appear to have affected its commitment to the
    bureau’s traditional human rights advocacy role. In a number of instances,
    the bureau’s ability to offer advice and resources for addressing human rights
    issues has enhanced its influence with regional bureaus and other key players.
• With very few exceptions, DRL is doing a good job in managing its relation-
    ships with important constituencies, correspondents, and partners. This
    includes most notably the Department’s regional bureaus, but it extends as
    well to a wide range of external interlocutors in other agencies and the
    Congress. Nongovernmental organizations (NGOs), an important DRL
    constituency, expressed satisfaction with the quality of their dialogue and
    interaction with the bureau and its leadership, even when they disagreed.
• A notable exception is the relationship between DRL and the Bureau of
    International Organization Affairs (IO). Disagreements over how best to
    advance U.S. human rights interests in the multilateral context, as well as
    continuing and sometimes acrimonious disputes over respective roles and
    responsibilities in this area, have hampered the Department’s ability to
    develop a coherent approach and strategy. The problems in the policy devel-
    opment process are not without consequences for U.S. foreign policy interests.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   1 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



      • The current structure that places the congressionally mandated office of the
          Ambassador-at-Large for International Religious Freedom within DRL is at
          odds with the Department’s organizational guidelines and has proved to be
          unworkable. As a consequence, the purposes for which the religious freedom
          function was created are not being adequately served. This situation also
          makes the Department vulnerable to potential criticism from concerned
          public and congressional constituencies.
      • DRL’s executive office also supports the Bureau of Oceans and International
          Environmental Scientific Affairs (OES). The substantial growth of both
          bureaus has placed severe strains on the office, justifying the establishment of
          separate executive offices.
      • Although the bureau is meeting its essential goals, it has not performed as
          well in its handling of internal management issues. One important conse-
          quence is the generally low morale of bureau staff. Better management
          practices would improve both productivity and effectiveness.
          The inspection took place in Washington, D.C. from April 28 to July 2, 2003.
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)




2 .                    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                INTRODUCTION AND POLICY
                       OVERVIEW

     The Bureau of Human Rights and Humanitarian Affairs was created in 1977 by
an act of Congress1 to formulate and implement policies to advance human rights
around the world, to provide policy advice to foreign policy decision makers, and to
ensure that human rights considerations are integrated into U.S. foreign policy. The
bureau’s responsibilities have been broadened substantially in the intervening years.
The Department reorganized the Bureau of Human Rights and Humanitarian
Affairs to include labor issues in 1994, and the new entity was named the Bureau
of Democracy, Human Rights and Labor. As the new title indicates, the bureau
received additional mandates for democracy and the protection of worker rights.
The bureau’s specific responsibilities include publication of the annual country
reports on human rights practices and the provision of advisory opinions with
respect to individuals seeking asylum in the United States. The promotion of
religious freedom and the preparation of an annual report on religious freedom
were legislated in 1998. Most recently, the bureau has been tasked with preparing
an annual report on U.S. efforts to support and promote human rights and democ-
racy.2 With the expansion of the bureau’s responsibility has come a corresponding
growth in staffing and organizational complexity.

     The present administration has made the advancement of human rights, de-
mocracy, and the rule of law a foremost foreign policy goal. One reflection of that
is the substantial expansion in both program activity and funding for the promotion
of human rights and democracy. In the last year DRL’s program budget, which
includes the bureau’s Human Rights and Democracy Fund (HRDF), has more than
doubled.




1
    Pub. L. No. 95-105.

2
 The first edition of the latter report, entitled Supporting Human Rights and Democracy, was issued while the
inspection was underway.


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003                         3 .

                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      THE BUREAU PERFORMANCE PLAN
          DRL’s Bureau Performance Plan (BPP), which was being developed and
      reviewed while the inspection was in progress, sets forth a well-developed and
      coherent, if ambitious, agenda. Principal goals include:
      • ·increased capacity and funding to support human rights and democracy
         promotion efforts;
      • development of country-specific diplomatic strategies for improving human
         rights practices and strengthening democratic institutions, using both bilateral
         and multilateral mechanisms;
      • ensuring compliance with both legislative and executive branch directives
         with respect to U.S. assistance and trade policies through a consistent applica-
         tion of human rights standards;
      • the promotion of worker rights and protections through both diplomatic and
         promotional activities; and
      • ending religious persecution and promoting religious freedom, with particular
         emphasis on the Middle East, and Central, South, and East Asia.
          Significantly, the plan sets forth, as an overarching goal, ensuring that democ-
      racy and human rights issues are addressed as an important part of a comprehen-
      sive counterterrorism strategy. The plan also acknowledges the bureau’s continuing
      goal and challenge of mainstreaming human rights considerations into all aspects
      of the foreign policy development process.



      DRL RESOURCES
          DRL has a total permanent staffing complement of 100, and uses other short-
      term and temporary staff. It manages appropriated funds, from HRDF and the
      Partnership to Eliminate Sweatshop Program, totaling $38.5 million for FY 2003-
      04. A more complete breakdown of bureau resources is contained in the Diplo-
      matic Readiness section of this report.




4 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                     EXECUTIVE DIRECTION


POLICY AND PROGRAM DIRECTION
    The DRL Assistant Secretary, a successful executive with experience in the
NGO community and in both the legislative and executive branches of govern-
ment, came to the job with a number of clear objectives. Under his purposeful
direction, the bureau has recorded some important achievements.

    The bureau has carried out a significant expansion in its program and grant
making activities for the promotion of human rights and democracy, while at the
same time enhancing the impact of its efforts by giving them greater strategic and
geographic focus. The revamped approach to promotion has enabled the bureau to
secure a doubling of its program funding, to $38.5 million for FY 2003.

    To support this expanded program emphasis, the bureau undertook a major
reorganization, combining the old offices of bilateral affairs, democracy programs,
and budget into the new Office of Human Rights and Democracy (PHD). It also
brought in outside expertise to staff a new unit to oversee program and grants
management.

    DRL consciously sought to improve its relationships with other parts of the
Department and to become better integrated into the policy process. Most bureaus,
most notably the regional bureaus, expressed satisfaction with the improved quality
of their dialogue and relationships with DRL.

    Notwithstanding the greater emphasis on promotional activities, DRL does not
appear to have lessened its attention to its traditional human rights advocacy role.
The bureau’s ability to bring resources and expertise to bear in addressing human
rights concerns appears to have enhanced its influence with the regional bureaus
and others in the Department.

    DRL has also pursued an active program of outreach to the public and the
Congress. NGOs, which remain an important constituency, were generally satisfied
with the quality of their access and dialogue with the bureau and its leadership.



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   5 .

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



          The bureau has also sought to strengthen other core functions. It has com-
      pleted the first phase of a plan to improve the usability of the annual country
      human rights reports. In June 2003, the bureau released its first edition of a major
      new report documenting U.S. efforts to advance human rights and democracy. The
      bureau has expanded its corporate responsibility initiatives to new sectors and
      companies.

          Finally, DRL leadership has begun to give needed and overdue attention and
      resources to the strengthening of the bureau’s unique role in providing advisory
      opinions in asylum application cases.



      HUMAN RIGHTS AND MULTILATERAL DIPLOMACY
          Disagreements between DRL and IO are not new, but by all accounts they have
      become more pronounced and acrimonious. They reflect both policy differences
      over how best to advance human rights interests in the multilateral context and
      disagreements over respective roles and responsibilities. Most importantly, these
      continuing disagreements have adversely affected the normal policy development
      process and, in consequence, handicapped the Department in its ability to develop
      coherent approaches and long-term strategies. A fuller discussion of these issues,
      together with OIG’s recommendations, is contained in the section on multilateral
      affairs.



      INTERNATIONAL RELIGIOUS FREEDOM
          The International Religious Freedom Act of 19983 established the position of
      the Ambassador-at-Large for International Religious Freedom (IRF). The Depart-
      ment decided that the incumbent would report to and through the DRL Assistant
      Secretary. This arrangement appears at odds with the intent of the legislation, as
      well as with the Department’s own organizational guidelines (1 FAM 014.2). The
      Department has only two other ambassadors-at-large, and both have a direct
      reporting line to the Secretary. Beyond the issue of legislative intent, OIG believes
      that a more mutually supportive relationship is needed. The legislation’s purposes
      are primarily the promotion of religious freedom, often in countries where other



      3
          Pub.L.No. 105-292


6 .                     OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



violations of human rights are routinely committed, and the deeper integration of
religious freedom concerns into U.S. foreign policy.

    The placement of an ambassador-at-large, who is legislatively mandated to
report to the President and the Secretary within an individual bureau, confuses
those reporting relationships, undermines the ambassador’s role, implies a role for
his office different from that intended, and tends to create needless friction and
conflict between the two offices. This situation has weakened the performance of
both IRF and those parts of DRL that work on related issues. Relations between
the two principals and their staffs have become increasingly distant and strained, in
large part because of the difficulty of making the unusual organizational arrange-
ment work. Neither party regards the current situation as satisfactory or sustain-
able. Resolution of this problem requires fact finding and consultations that go
beyond the scope of this inspection. Therefore, OIG recommended later in this
report that the issue be examined by the Department’s senior management, with a
view to finding a satisfactory solution.



INTERNAL MANAGEMENT
   The inspection revealed a range of significant problems in the bureau’s internal
management, problems that have adversely affected both performance and staff
morale.

Communication

     Bureau staff members at all levels expressed concern about the quality of
internal communication within the bureau. A key factor was the Assistant
Secretary’s own personal style and reserve, his penchant for holding information
closely, and his habit of dealing directly and discreetly with individual staff mem-
bers on particular issues. The result of this pattern of communications – which
several staff members described as a hub-and-spoke configuration – is a restriction
in the flow of needed information and guidance, both vertically and horizontally,
and the consequent loss of opportunities for effective coordination and collabora-
tion among the bureau’s various offices. The Assistant Secretary has recently taken
steps to increase information flow, including brown bag lunches, offsite reteats for
bureau personnel, and more frequent front office meetings with managers.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   7 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      Organizational Structure and Staffing

          The DRL’s front office executive leadership consists of the Assistant Secretary,
      a principal deputy assistant secretary (PDAS), a second deputy assistant secretary
      (DAS), a senior coordinator for democracy and human rights, and a senior adviser
      for strategic planning and external affairs. The previous PDAS left the bureau in
      November 2002 to take a special assignment in Afghanistan. At that time, the
      bureau enlisted the temporary assistance of a new PDAS who would serve until the
      summer of 2003. The senior coordinator position was a DAS until 1993 and has
      continued to be a senior executive service de facto DAS since then. The senior
      adviser acted as a de facto DAS, making a total of four official and de facto DASs.
      Before the inspection began, the senior coordinator departed the bureau with just a
      month’s notice for a position in the White House, and the senior adviser took over
      the position of senior coordinator. The second DAS was on an indefinite detail to
      the Iraqi reconstruction effort throughout the inspection. OIG suggested that one
      way to fill the second DAS position would be to name an office director, perhaps
      on a rotating basis from among the bureau’s offices, as a temporary replacement.

          DRL’s staffing and organizational structures are unusual and work against good
      management practice. As a bureau, DRL has traditionally relied more heavily than
      most bureaus on talent brought in from outside the Department. More problematic
      than the numbers is the way in which some noncareer appointees have been de-
      ployed. For example, senior experts hired to fill what are nominally staff positions
      have added new layers of supervision. In other instances, persons assigned to
      particular offices report not to the office director but directly to someone in the
      front office. This has led to some confusion in lines of reporting and responsibility
      and diluted the authority of office directors and middle managers. In several
      instances, front office leadership has made important decisions on staffing without
      consulting middle managers and other affected staff.

          In the bureau’s defense, it has been handicapped by having only two authorized
      DAS positions, despite a request made late in the Clinton administration and a
      second request made early in the Bush administration to add another DAS. Given
      the recent growth in DRL programs and the complexity of the bureau’s mandate,
      the request for another DAS position is justified. OIG believes that the Depart-
      ment should seriously reconsider this request.

          In principle, the bureau’s PDAS is charged with overseeing the day-to-day
      management of the bureau. In practice, that task is complicated by the Assistant
      Secretary’s direct interest and involvement in management issues, as well as the
      PDAS’s frequent, extended absences from the office in order to fulfill other as-


8 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



signed duties. As a result, the staff complained that this leaves the bureau without
a senior official to address management issues. The management challenge facing
the front office has been exacerbated by the temporary absence of the bureau’s
second DAS.


   Recommendation 1: The Bureau of Democracy, Human Rights and Labor
   should rationalize the present ad hoc management structure of the front of-
   fice and realign responsibilities in such a way as to assign clear responsibility
   for management of the bureau’s day-to-day operations. (Action: DRL)


Personnel Practices

    The bureau has unresolved personal conduct issues that need early resolution.
In addition, OIG received an unusual number of complaints alleging that personnel
decisions taken by the bureau’s leadership were arbitrary, unfair, and possibly in
violation of established merit system promotion and protection procedures. OIG
found nothing that would lead it to conclude that specific personnel rules or
regulations might have been violated. However, the number and nature of the
concerns expressed, coupled with other anomalies in the handling of personnel
actions, prompted OIG to recommend that the Bureau of Human Resources
(DGHR) conduct a more comprehensive oversight review of delegated personnel
authorities to establish whether human resources management programs and
practices are in compliance with merit system principles and are responsive to
employee needs. DRL’s leadership has welcomed this proposal.

Underutilized Resources

    Although important attention has been given to a number of priority issues and
core activities, the inspection found that some significant elements of the bureau
viewed themselves as being on the margins of the bureau’s agenda and considered
that their resources and talents were not being fully utilized. One example is the
Office of International Labor Affairs (IL). DRL leadership acknowledges that the
now fully staffed IL office and other elements of the bureau can and should be
enabled to make a greater contribution and promises to turn greater attention to
these areas in the near future. The bureau’s BPP for 2005 outlines intended in-
creased efforts in the labor area.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   9 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Timely Decision Making and Clearances

            Two specific and related issues emerged repeatedly in the course of the inspec-
       tion. The first concerns the bureau leadership’s slowness in addressing some
       critical policy and management issues and providing timely guidance to staff. One
       example involves revisions to the Department’s guidelines for implementing the
       Leahy Amendment cases,4 which prohibits assistance to elements of foreign secu-
       rity forces that have committed human rights abuses.

           DRL was credited and praised for its role in rewriting and tightening the regula-
       tions. However, at the end of the inspection, it had not approved the final version
       more than two months after the other bureaus involved had done so. Another
       example of slow decision making was an unresolved dispute over the preparation
       of the legislatively mandated international religious freedom report, which delayed
       issuance of instructions to embassies by almost three months.

            The bureau also appears to be laboring under an unusually cumbersome clear-
       ance process, often resulting in front office review of even routine matters of only
       tangential interest to DRL. DRL clearance process does not follow the practice of
       most other bureaus. DRL staff said it was their understanding that they were
       required to clear virtually everything, including routine items, with the front office,
       and they cited instances in which resultant delays deprived the bureau of opportu-
       nities to register its views or influence policy. Representatives of other bureaus
       interviewed by OIG also noted problems in obtaining DRL input in a timely
       manner. The bureau’s leadership believes that the problem arises from an overly
       rigid interpretation by DRL staff of the guidance that has been issued. The Assis-
       tant Secretary pointed out that the bureau was operating without two official or de
       facto DASs, which has caused delays in recent months. Nevertheless, the system as
       it is currently operating, places an undue burden on both busy front office princi-
       pals and staff. Another problem with the clearance process of DRL is that there is
       no central tracking system to follow documents as they wind their way through the
       front office. The front office indicated to OIG its intention to reexamine the
       clearance process, including what material requires front office clearance.




       4
           Pub. L. No. 105-277 §568



10 .                      OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



MORALE
     The clearance issue, along with other management practices, has adversely
affected DRL’s work environment, morale, and productivity. The issues have also
contributed to a widespread perception of a gap between a small circle of insiders,
which consists mainly, but not exclusively, of noncareer appointees, and the vast
majority of the bureau’s career staff, both Foreign Service and Civil Service. It
should be noted, however, that the professionalism of almost all noncareer staff
members and their conscientious efforts to develop and maintain good rapport with
members of the career services have contributed importantly to mitigating these
effects. Although the bureau continues to fulfill its primary responsibilities and
meet its principal goals, better management practices would improve both produc-
tivity and effectiveness.



THE OFFICE OF EXECUTIVE DIRECTOR
     The office of the executive director (OES-DRL/EX) currently provides admin-
istrative support to both DRL and OES, as well as to the office of the science and
technology advisor to the Secretary. However, in recent years, both functional
bureaus have grown substantially, both in size and in complexity, and further
growth is anticipated. The capacities of the executive directorate office have been
strained, performance and responsiveness have suffered, and the office’s director
and deputy director have been faced with competing priorities and conflicting
requests. Therefore, OIG recommended the establishment of two separate execu-
tive directorate offices, one for each bureau, as a way to improve service and
support and to strengthen responsibility and accountability.



EQUAL EMPLOYMENT OPPORTUNITY
    The bureau’s awareness of, and sensitivity to, Equal Employment Opportunity
(EEO) concerns scored about average on the OIG administrative questionnaire. A
small number of EEO complaints filed in the recent past have been either resolved
or dropped, and no complaints, formal or informal, were pending at the time of the
inspection. There is cause for concern, however, that other problems with the
bureau’s personnel practices, if not addressed, could prompt new EEO complaints
in the future.



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   11 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       COMPLIANCE FOLLOW UP REVIEW
           In light of the concerns identified by the inspection, DRL leadership has
       indicated that it would welcome a compliance follow up review in order to further
       assist the bureau in carrying out indicated reforms and improvements. OIG en-
       dorses this suggestion.




12 .                OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                            CORE FUNCTIONS

EFFORTS AND RESULTS
        OIG was able to attest to DRL’s ongoing efforts to improve specific human
rights conditions throughout the world. Some of the accomplishments include:
• ·the first U.S. government programs to promote democracy in China;
• ·major additions and refinements of U.S. programs to advance human rights
    and democracy in central Asia;
• ·new programs that foreshadowed the administration’s Middle East Partner-
    ship Program;
• ·contributions to the “governing justly” portion of the Millennium Challenge
    Account;
• ·joint efforts with IO to ensure a better UN Commission on Human Rights
    session;
• ·advising the Department of Commerce on new human rights training for
    commercial officers; and
• ·work with the Department of Labor in their overseas grants to improve labor
    conditions.
    These efforts include a wide range of activities, such as funding printing presses
and radio stations, engaging in dialogues with countries that have poor human
rights practices, protesting detention of political prisoners and others wrongfully
detained, and at times advocating sanctions against offending governments. Secur-
ing some degree of cooperation from host governments with poor human rights
records is usually in itself an accomplishment. These efforts are numerous and
address the most serious abusers of human rights in almost 100 countries. Some-
times the results can only be measured in gradual improvement in human rights
practices. However, many of these efforts have reversed concrete cases of injus-
tices and ended particular abuses of human rights in many countries.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   13 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           The bureau also plays a key role in ensuring that human rights principles and
       obligations receive due consideration in the development of U.S. policies. For
       example, DRL has been actively but discretely engaged in ongoing discussions in
       the Department regarding the handling and treatment of the Guantanamo detain-
       ees. Although DRL’s efforts in all areas cannot always succeed, the results show
       that the bureau is making an important difference in improving human rights
       practices around the world.



       OFFICE FOR THE PROMOTION OF HUMAN RIGHTS AND
       DEMOCRACY
       Overview

           DRL decided in 2001 to merge the former offices of bilateral affairs and
       democracy programs and budget to create the PHD office. Although both of the
       former offices dealt with human rights and democracy issues, their perspectives
       were distinct, with the former emphasizing liaison with the regional bureaus and
       the latter with selection, funding, and implementation of programs funded by
       HRDF appropriations. There are at times inherent differences between the policy
       and program objectives, and some of the present problems experienced by PHD
       may stem from these historically disparate perspectives.

            PHD provides overall policy direction and programmatic coordination for U.S.
       government activities promoting democracy and human rights. PHD works with
       foreign governments and NGOs, in addition to the Department’s regional and
       functional bureaus and the U.S. Agency for International Development, to accom-
       plish these objectives. PHD also oversees the bureau’s HRDF funding grant
       programs to foster human rights and democracy initiatives worldwide. DRL’s
       strategy of focusing HRDF support chiefly on the Middle East, Central Asia, and
       the People’s Republic of China has earned both praise for its targeted agenda and
       criticism for omission of other critical regions.




14 .                OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Promotion and Human Rights and Democracy
Staffing and Morale

     A Foreign Service officer (FSO) is the office director in charge of PHD func-
tions, with the assistance of two FSO deputy directors. Support staff includes a
senior advisor on Asia, a Fellowship of Hope Fellow/special advisor (detailed from
the British foreign service), one FSO, ten Civil Service foreign affairs officers
(counting two who are on detail), three Civil Service program analysts, one Ameri-
can Academy for the Advancement of Sciences (AAAS) fellow, two Presidential
Management Interns (PMIs), one Pickering Fellow, three summer interns (under-
graduates), and three Civil Service administrative support employees. The imbal-
ance between FSOs and Civil Service officers is a source of concern to PHD
management, which believes that a more even or balanced mix would be beneficial
to the office. However, recruitment of FSOs in DRL and other functional bureaus
is a long standing problem, one that predates this administration. The foreign
affairs officers have dual policy and program responsibilities, spending approxi-
mately 50 percent of their time on each.

    PHD’s strengths in the policy area are the expertise of its staff and an office
director who motivates employees to achieve objectives. The director understands
management and cares about the staff. The staff works well individually, and
collectively they draw upon the experiences of the entire group to accomplish
bureau objectives.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   15 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




16 .    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                          POLICY DIRECTION
     PHD competently and successfully carries out its policy and promotion respon-
sibilities. The office develops and implements country-specific strategies promot-
ing human rights and democracy. It provides policy guidance to regional bureaus,
U.S. embassies abroad, and other agencies. PHD meets with Congress, other
agencies, the NGO community, and the private sector to explain and build support
for U.S. goals. Moreover, the office monitors worldwide observance of human
rights, democracy, and fundamental freedoms.



PROGRAM UNIT FUNCTIONS: GRANTS PROCESSING
     PHD is responsible for administration and oversight of the HRDF projects, and
manages approximately $36.5 million in grant funds allocated for this fiscal year, up
from $13 million the previous year. Responsibility for processing and managing
grants is borne by just three employees, two program analysts and a program
coordinator, who have for the most part sought training on their own initiative to
acquire expertise in grants administration and budget analysis. By all accounts,
DRL’s ability to process HRDF funds in a timely fashion has improved dramatically
since the Assistant Secretary’s arrival. Prior to 2001, funds were frequently not
obligated prior to expiration of the authorized period. There were lengthy delays
between project proposal and implementation, and HRDF funds were commonly
assigned to supplement existing U.S. Agency for International Development admin-
istered programs rather than as stand-alone DRL administered projects. The
significant increase in HRDF funds from the previous fiscal year has created
workload challenges for the programming unit. Owing to statutory restrictions, the
allocation of HRDF funds follows a circuitous path from the Office of Manage-
ment and Budget through the U.S. Agency for International Development for
transfer to DRL. The process must be completed in the relatively short time period
between final budget appropriations and the end of the fiscal year. This invariably
creates a seasonal bottleneck both within DRL and the Bureau of Administration’s
acquisitions management office as they strive to meet the goal of awarding the bulk
of the two-year grants before the end of the first fiscal year.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   17 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           DRL and the Bureau of Administration agreed that staff in both bureaus is
       insufficient to deal with the increased DRL grants workload. Several suggestions
       were offered to alleviate this problem including: the creation of a separate and fully
       functioning grants administration unit, i.e., a grants officer with a high dollar
       warrant within DRL; a review of the grant processing to determine whether redun-
       dant clearances or duplicate reporting can be eliminated or streamlined; or, the
       hiring of additional staff within the acquisitions office that would exclusively
       service DRL grants. The first suggestion has precedence within the Department,
       inasmuch as the Bureau of Population, Refugees and Migration (PRM), the Bureau
       of Near Eastern Affairs and the Bureau of International Narcotics and Law En-
       forcement Affairs have their own in-house grants officers with warrants. Although
       several PHD staff and managers argued for grant making authority, there are
       potential pitfalls with such an arrangement. Foremost are the risk of diminished
       objectivity and potential pressure on the grants officer, who would be separated
       from the front office chain of command by only one or two supervisors.

            The Department is participating in the Federal Commons E-grant initiative and
       is scheduled to begin a transition to electronic grants processing by fall 2003. This
       federal initiative seeks to create a standardized federal system for grants that will
       reduce the paperwork burden and allow real time tracking of grant applications,
       awards, and post award reports. Because the software purchase for the agency
       portal has not yet been completed, the targeted schedule may not be realistic.
       However, eventual implementation of the initiative will have a dramatic impact on
       DRL’s grants administration efficiency.


           Recommendation 2: The Bureau of Democracy, Human Rights and Labor,
          in coordination with the Bureau of Human Resources and the Bureau of Ad-
          ministration, should ask that the Bureau of Administration be given sufficient
          additional grants officer positions to service their bureaus grants. (Action:
          DRL, in coordination with M/DGHR and A)




18 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



PROGRAM UNIT FUNCTIONS: PROGRAM EVALUATION
     Several staff and managers suggested the need for more systematic post award
monitoring of HRDF projects. An issue of particular concern is that projects
intended to promote human rights or democracy have clear and lasting impact.
This concern is exacerbated by the fact that PHD foreign affairs officers have
limited opportunities to travel for on site visits to HRDF programs and are forced
to rely on already overburdened liaison post staff for grants project monitoring.
DRL has requested and obtained greatly increased travel funds to enable PHD
staffers to monitor the portion of HRDF grants not managed by the U.S. Agency for
International Development. Longitudinal evaluations in this area would be espe-
cially beneficial for strategic planning initiatives. PHD staff said that DRL has
requested funds in the FY 2005 BPP to add an employee who would strengthen the
program evaluation functions, but this may not be sufficient.

     Given the current workload, desk officers and programming staff are doing a
commendable job. However, PHD staff indicated that among foreign policy
officers there is often the sentiment that programming work is the job of the
programming unit, and that monitoring and oversight of HRDF programs and
projects should be done from a budget analysis/grants processing perspective. A
disconnect between policy and program oversight is detrimental to the success of
the programs, because the foreign policy officers, in collaboration with the regional
bureaus, have the most intimate knowledge of the program implementation.
Unless program and policy tasks are combined to a greater degree, success is less
likely. Cross training of staff and hiring of additional staff would alleviate the
workload burden, allow greater oversight of programs, and ensure continuity of
program monitoring and evaluation. In addition, the bureau needs increased staff
to create a more systematic monitoring and evaluation function. DRL has re-
quested one new evaluation position in the 2005 BPP, but this may not be enough.


   Recommendation 3: The Bureau of Democracy, Human Rights, and Labor
   should provide cross training for programming and policy staff as deemed ap-
   propriate to ensure continuity of program monitoring and evaluation. It
   should also determine what additional staff is required for a more systematic
   monitoring and evaluation function and implement a plan for meeting that
   requirement. (Action: DRL, in coordination with M/DGHR)




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   19 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       OFFICE OF STRATEGIC AND EXTERNAL AFFAIRS
           The Office of Strategic and External Affairs (SEA) provides concrete planning
       support for DRL through its responsibilities for several discrete functions. The
       office oversees compilation and writing of the annual BPP and the strategic plan-
       ning presentation to the Secretary. It coordinates plans to inform key U.S. groups,
       and acts as a liaison with members of Congress, the media, and NGOs. SEA
       coordinates preparation of all bureau public documents, including speeches, press
       guidance, web content, and opinion editorials. It also formulates and implements
       public diplomacy strategies to influence foreign groups and opinion leaders.

           SEA staffers are talented and dedicated. The office has an eclectic mix of ten
       employees including two Schedule Cs (excepted service appointments of a confi-
       dential or policy nature), one Schedule B (excepted service temporary appoint-
       ments of a project nature), two FSOs, one contract employee, and four Civil
       Service employees. Despite its capable staff, SEA is organized in an awkward
       manner that impedes efficient operations. These observations are not related to
       individual performances but rather refer to organizational structure. The structure
       blurs the lines of authority leaving supervisory responsibilities unclear and the
       chain of command ad hoc. The senior advisor and office director positions are
       largely duplicative. The structure can best be described as horizontal with indi-
       vidual members focused on, and responsible for, distinct areas reporting to different
       people. SEA conducts weekly staff meetings to keep everyone informed of office
       and bureau happenings.

            The Schedule C senior adviser acts as the de facto office director. The FSO
       encumbering the nominal office director position has limited authority and respon-
       sibility. Schedule C and B positions do not report to the nominal office director.
       Civil Service positions that appear to report to the director, in fact, do not. One of
       them works primarily under the direction of the front office. Another deals with
       the office director largely on administrative matters. Yet, the office director is
       responsible for performance evaluations. OIG believes that the senior advisor
       position is not needed and confuses the lines of responsibility. The office director
       should have full authority and responsibility for management of SEA and supervi-
       sion of its staff.




20 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 4: The Bureau of Democracy, Human Rights, and Labor
   should reorganize the structure of the Office of Strategic and External Affairs
   to improve efficiency and to clarify lines of authority and responsibility. In
   particular, the position of the senior adviser for strategic planning and exter-
   nal affairs should be abolished or reprogrammed, taking advantage of the
   incumbent’s recent move to the position of senior coordinator for human
   rights and democracy. (Action: DRL)


    On August 25, 2002, SEA hired an expert on Muslim issues on a temporary
Schedule B appointment for a period of one year. The position was newly created
and had never been filled. The person selected worked several days in September
2002 but has remained on leave without pay since that time. On June 13, 2003,
the person requested, and OES-DRL/EX approved, a change to intermittent status
from full-time. The person has had outside commitments that have prevented his
working full-time for DRL as originally anticipated. The June request did not
include any type of proposed schedule or plan for working. The position uses full-
time equivalent (FTE) funding, which could more productively be transferred to
other bureau needs. One available option is to retain the person as a consultant.
This would free up FTE, yet allow the person to provide expertise to DRL as
needed. In view of the fact that in the last year the person has failed to encumber
the position, there is no justification for continuing the Schedule B appointment.
OIG informally recommended that the bureau terminate the Schedule B temporary
appointment, and if warranted, retain the incumbent as a consultant.

    SEA has three public diplomacy positions, but no public affairs positions. The
responsibilities of SEA involve substantial amounts of public affairs work, includ-
ing outreach toU.S.-based NGOs and other key U.S. groups and leaders. SEA also
serves as the bureau liaison with members of Congress and their staffs and with
print and broadcast media. The office produces pamphlets and materials designed
primarily for domestic audiences that it ships to selected embassies. Consequently,
the pamphlets become a part of its public diplomacy effort.

     Interviews with each of the public diplomacy officers, and a review of their
work, revealed that they function chiefly as public affairs officers. Their position
descriptions are heavily weighted towards public affairs duties. A review of the
three public diplomacy positions appears in order as the officers each devote a
minimum amount of time and effort to public diplomacy work. Perhaps combining
all public diplomacy related functions into one position and reprogramming the
others may be a solution.



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   21 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           Salaries for public diplomacy positions are paid out of the congressional ear-
       mark controlled by the Office of the Under Secretary for Public Diplomacy and
       Public Affairs and not from the Department’s central salary account. Congress has
       restricted use of the earmarked funds solely to public diplomacy activities. Each
       public diplomacy position also receives a small yearly expense account from the
       congressional earmark. For FY 2003, each slot received $6,000, which provided
       DRL with a total of $18,000. Because of this legislative mandate, it is important
       that positions be properly classified.


             Recommendation 5: The Bureau of Democracy, Human Rights, and Labor,
             in coordination with the Bureau of Human Resources, should review the
             three public diplomacy positions (Position numbers U-00410-00, U-00411-00,
             and S-86806-00) in the Office of Strategic and External Affairs to determine
             whether any or all should be reprogrammed as public affairs positions. (Ac-
             tion: DRL, in coordination with M/DGHR)




       OFFICE OF COUNTRY REPORTS AND ASYLUM AFFAIRS
       Human Rights Report

           One of DRL’s most important functions is to produce the annual Country
       Reports on Human Rights Practices, commonly referred to as the Human Rights
       Report. The report, mandated by the Foreign Assistance Act of 1961, as
       amended,5 and the Foreign Trade Act of 1974,6 is due to Congress annually on
       February 25. In the past, some NGOs and other constituencies criticized the
       report for being less than objective. The report has evolved over the past several
       years, and it is now generally considered an authoritative summary of human rights
       practices and conditions for 196 countries. Some critics, who once produced their
       own sizable volumes criticizing the report’s thoroughness and objectivity, no longer
       do so.

           The office does an admirable job of producing the report by assembling and
       editing submissions from overseas posts, researching and incorporating supplemen-
       tal material from a variety of sources, and vetting the report with posts, Depart-


       5
           Pub. L. No. 87-195
       6
           Pub. L. No. 93-618


22 .                      OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



ment bureaus and principals, and other agencies where necessary. The office is
composed mostly of PMIs, interns, and when actually employed (WAE) staff. The
report production period of September through February is intense, with the Office
of Country Reports and Asylum Affair’s (CRA) core staff of about 18 being joined
by a dozen WAEs and other staff.

    Until recently the report was faulted for being long, repetitive, boring, and
poorly organized. However, the report’s substance has improved. In the years
between 1992 and 2002, the report grew from 1,200 to more than 5,000 pages. In
2002, at the request of the Assistant Secretary and under the leadership of the
office director, DRL initiated a multi-year, phased approach to improve the report’s
readability and usability by making it shorter, more focused, and more manageable.
The intention was to increase its usefulness to policymakers, interest groups, the
U.S. public, and audiences overseas. Already streamlined by ten percent this year,
the report will be reduced by another 15 percent next year. At the same time, SEA
is working to make the report more accessible in translation, make it available
electronically, and to increase the report’s effectiveness as a foreign policy tool.
These efforts have been applauded both in and outside the Department.

    A further improvement is that regional bureaus noted that the process of
resolving disagreements with DRL over the report’s contents has become less
combative and is now more collaborative. CRA staff ensured that during the
clearance process comments from embassies, bureaus, and other agencies receive
due consideration, and points of disagreement are resolved for the most part
through constructive dialogue. The number of instances for which seventh floor
intervention was required has dropped substantially.

Asylum Function

    CRA’s other main function is to process requests for information on country
conditions for use by U.S. officials who adjudicate asylum claims from foreign
nationals in the United States who are seeking asylum here. The asylum function
has a long and consistent history of neglect in DRL and its predecessor bureau. As
noted in OIG’s 1994 inspection report on the Bureau of Human Rights and Hu-
manitarian Affairs, the function traditionally has not been a priority, and it has
suffered from long standing resource problems. By DRL’s own recent assessment,
the performance of the asylum unit has not been satisfactory for at least a decade.
The Assistant Secretary and the CRA office director have committed to correcting
this unacceptable problem. In early 2003, DRL hired a new deputy office director
to oversee and energize the function. Since the deputy director’s arrival he has



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   23 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       worked to reinvigorate the relationship between CRA and asylum officers and
       immigration judges. As indicated in DRL’s FY 2005 BPP, the bureau is requesting
       three new permanent positions for the asylum function. However, there is no
       assurance these positions will be forthcoming. In the meantime, as described
       below, CRA is in the process of hiring three WAEs to fill in until such time as
       permanent staff can be obtained. Although progress is being made, and there are
       plans to devote much needed resources to the function, the bureau must work hard
       to make good on this commitment and sustain it for the long term.

           OIG notes that over the years there has been discussion about the proper home
       for the asylum function within the Department. At the time of OIG’s 1994 inspec-
       tion of DRL, there was talk of assigning the asylum function to PRM, which did
       not want it. However, there is overall agreement now among bureaus that the
       function should remain in DRL and that, within DRL, CRA is the most logical
       office to assume the function.

       Staffing and Priorities

            The neglect of the asylum function is the result of competing priorities and
       insufficient staff within CRA. The CRA staff devotes most of their time to pro-
       ducing the annual human rights report, one of DRL’s most important and visible
       undertakings. This is a six-month, all-out effort. Even those WAEs who are
       expressly assigned to the asylum function are pressed into service to work on the
       report. Unfortunately for the asylum cases piling up around them, many of the
       WAEs exhaust their hours working on the human rights report. The majority of
       CRA staff is interns, who when not working on the human rights report, are usually
       in class, on required rotation assignments, or on travel. The three months it takes
       CRA staff to prepare the IRF report reduces resources available for the asylum
       function. For FY 2003, the Assistant Secretary approved three additional WAEs,
       paid for out of bureau travel funds, but there is no date set for their arrival. One
       of these WAEs would serve as a much-needed asylum supervisor. However, there
       appear to be no funds committed for the three WAEs in the FY 2004 budget. The
       FY 2005 BPP calls for three FTEs for the asylum function, but this might not
       occur. The essential thing is that whether WAE or FTE, the employees must
       remain dedicated to the asylum function steadily throughout the year and not be
       subject to the cyclical nature of CRA’s other work.




24 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Recommendation 6: The Bureau of Democracy, Human Rights and Labor
    should ensure that the Office of Country Reports and Asylum Affairs receives
    additional staff to process asylum cases and that these employees remain
    dedicated to this function throughout the year. (Action: DRL)


Types of Asylum Cases

     CRA receives two types of asylum applications: applications forwarded to DRL
by asylum officers at the Department of Homeland Security’s Bureau of Citizen-
ship and Immigration Services (BCIS), formerly the Immigration and Naturalization
Service at the Department of Justice and asylum cases forwarded to DRL by
immigration judges at the Department of Justice’s Executive Office of Immigration
Review. Although CRA does not maintain statistics, it estimates that in FY 2002,
it received between 97,000 and 133,000 applications in total. Both cases usually
have a 60-day turnaround time. Although, by law, Department comment on the
cases is discretionary,7 Department policy is to exercise its option to review all
cases and provide either advisory opinions on conditions in the applicant’s country
of origin or generalized country profile information.

Department of Homeland Security, Bureau of
Citizenship and Immigration Services Cases

     For 2002, CRA estimates it received 60,000 cases from BCIS for comment.
With current, or even moderately increased resources, CRA cannot review these
cases. Further, these applications are at a preliminary stage of development and
contain little useful information, so there is not much value in a CRA review. BCIS
generally concurs with this and has no expectation that the Department will review
these applications. Nevertheless, BCIS is required by law to forward them to CRA.8
Boxes of these applications fill up CRA offices, and bags full of them are piled high
along the walls. Handling these applications is time consuming, an administrative
burden for both BCIS and CRA, and an unnecessary taxpayer expense. According
to CRA officials, BCIS is receptive to the idea of seeking relief from having to send
these applications to the Department. CRA should encourage BCIS to consult with
its legal office about this. In the meantime, CRA met with the L to explore whether




8 CFR 208.11
7

8 CFR 208.11
8




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   25 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       there is a means by which BCIS can be relieved of the requirement to send the
       applications to CRA. To date, no response has been received from


          Recommendation 7: The Office of the Legal Adviser should respond to the
          Bureau of Democracy, Human Rights and Labor regarding options for han-
          dling Bureau of Citizenship and Immigration Services asylum applications and
          provide any needed assistance. (Action: L)


       Department of Justice/Executive Office of
       Immigration Review Cases

                Asylum cases at a later stage of adjudication are forwarded to the Depart-
       ment by Department of Justice immigration judges. Again, because CRA does not
       maintain statistics, estimates given to OIG varied widely on how many of these
       cases are received. Estimates ranged from 5,000 to 73,000. (b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


           The applications that are reviewed by CRA do not receive a customized re-
       sponse. The majority are returned to the Department of Justice with a sticker
       affixed advising the recipient to refer to the DRL human rights and IRF reports as
       sources of relevant information. Feedback indicates these sources are indeed
       considered useful by asylum adjudicators. The sticker also refers the adjudicator to
       CRA’s country profiles. These profiles, although similar to the write-ups in the
       human rights and IRF reports, are more detailed and focused on issues pertinent to
       asylum adjudicators. The use of the profiles has been a success as they are valued
       by Department of Justice officials and save CRA staff from having to produce
       customized letters for each case. CRA intends to draft individual letters only for
       the most complex and sensitive cases. However, the profiles have not been up-
       dated since 1998 and may not contain an accurate accounting of current condi-
       tions. CRA plans to use the prospective new staff to update them by first revising
       the profiles for the countries with the most asylum applicants. OIG suggested that
       CRA explore electronic distribution of the country profiles in order to achieve
       further efficiencies. OIG also made informal recommendations that CRA update
       the profiles and share the drafts of the updated profiles with PRM.




26 .                   OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Tracking Asylum Cases

         As described above, CRA does not track the asylum cases it receives, nor
those it accepts for review. Bureau management was unable to provide an accurate
count or consistent estimates of the cases. Additionally, there is no way to ensure
that cases will be reviewed within allotted Department of Justice time frames.
Only cases that receive a response are logged. For cases accepted for review, there
are no criteria for determining the priority in which they should be processed. Such
systems and controls are needed to ensure effective and efficient handling of
applications. The deputy director is aware that these systems are lacking and hopes
to institute them in the future.


   Recommendation 8: The Bureau for Democracy, Human Rights and Labor,
   in conjunction with other planned improvements to the asylum function,
   should develop a system to track asylum cases and prioritize the order in
   which they are processed. (Action: DRL)


International Religious Freedom Report

       CRA’s role in the preparation of the annual IRF report is described in the
IRF section later in this report.



OFFICE OF MULTILATERAL AFFAIRS
    The Office of Multilateral Affairs (MLA) coordinates with other offices in the
Department to support U.S. missions to international organizations and ensure that
human rights and democratization issues are addressed in the international fora.
The current staff in MLA is quite competent and is a strong advocate for DRL
positions. The MLA office participated actively in the effort to regain a seat on the
UN Commission for Human Rights (UNCHR) after the United States was voted
off the Commission in 2001. This effort included multiple trips and lobbying
efforts with allied countries and others to ensure the re-election of the United
States to the commission in 2002.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   27 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           On the negative side, the office has had trouble recruiting adequate staffing in
       recent years. The present FSO office director faced six vacancies out of ten
       authorized positions when she arrived in 2001. She devoted much of her time to
       personnel recruitment and was eventually able to boost the staff to a full comple-
       ment.

           DRL’s generally good relations with regional and most other bureaus in the
       Department is lacking in the case of MLA’s main interlocutor, the IO Bureau. The
       expansion of Department bureaus in recent decades in response to growing U.S.
       interests with respect to global issues has led to a blurring of responsibilities
       between IO and certain functional bureaus, including DRL. MLA and the DRL
       front office have had several disagreements with IO, especially concerning human
       rights policy in the UNCHR and other UN bodies. The disagreements between
       DRL and IO involve differences on how best to advance our human rights objec-
       tives in the multilateral context. They extend to disputes on strategy and tactics, as
       well as the respective roles and responsibilities of the two bureaus. The differences
       between DRL and IO go beyond normal bureaucratic tensions and exceed the point
       of useful competitive creativity. The result is wasted effort on the part of many
       personnel in both bureaus, including senior managers. Both bureaus are too prone
       to letting lower-level disputes escalate to high levels without intervention by senior
       managers, including office directors and DASs. The Office of the Under Secretary
       for Global Affairs worked with DRL and IO to sort out differences on issues and
       strategy related to the spring 2003 UNCHR session, and the results were better
       than in previous years. However, fundamental, underlying disagreements and
       tensions remain.

           The disagreements and disputes have hampered the Department’s ability to
       develop a coherent approach and strategy. Joint instructions to the annual
       UNCHR have been late and unclear due to IO and DRL battles. The Deputy
       Secretary has had to decide on several split memos from DRL and IO. The Na-
       tional Security Council and the White House Domestic Policy Council are working
       to establish their own policy development mechanisms, in part due to the
       Department’s inability to develop a coherent set of objectives.

           Past attempts by DRL and IO assistant secretaries to reach an understanding on
       joint preparations for UN bodies have not been clearly articulated to all bureau
       staff and/or respected by most players in the two bureaus. The two bureaus should
       once again seek to determine the appropriate delineation of responsibilities for
       DRL and IO in UN bodies and agree on the best structure and process for develop-
       ing and implementing policy in the multilateral context. In particular, DRL and IO
       should emulate this year’s UNCHR process of frequent consultations and set joint


28 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



strategy early on for upcoming UN events, including UN General Assembly, Eco-
nomic and Social Committee, and other meetings.


      Recommendation 9: The Bureau for Democracy, Human Rights and Labor
      and the Bureau for International Organizations should clarify the respective
      roles of the two bureaus relating to the Department’s responsibility for human
      rights and democracy issues in United Nations bodies. The two bureaus
      should create a process for defining responsibilities on issues of mutual con-
      cern and for developing options for senior policy makers to consider with a
      view to establishing long-term strategy for advancing human rights objectives
      in the multilateral fora. (Action: DRL and IO)




OFFICE OF INTERNATIONAL LABOR AFFAIRS
    The Office of International Labor Affairs (IL) is charged with promoting
worker rights and working with others in the Department and other agencies to
address international labor issues. It seeks to ensure the inclusion of labor rights in
the promotion of human rights and democracy. The office also monitors countries’
compliance with worker rights provisions in U.S. laws, such as the statutes govern-
ing the Overseas Private Investment Corporation9 and the Generalized System of
Preferences program.10 IL provides policy and program guidance to the
Department’s labor officers and labor reporting officers at posts overseas. Although
not always in agreement, IL maintains a good relationship with the Bureau of
Economic and Business Affairs and a close relationship with the Department of
Labor.

    IL also supports the Advisory Committee on Labor Diplomacy, which was
created in 1999 to study how to use labor diplomacy to advance U.S. interests. In
2000, the committee issued its first report, which contained 29 recommendations
for reinvigorating U.S. international labor diplomacy. A second report, issued in
2001, reviewed the interagency labor diplomacy process. Some easy-to-effect
recommendations from the first report were implemented. The Assistant Secretary
recently asked the committee to shift its focus to the role that labor issues should




9
    22 USC 2191a
10
     USC 2462, 19 USC 2467


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   29 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       play in advancing democracy in the Muslim world and China.

           The position of special assistant to the Secretary and coordinator for interna-
       tional labor affairs was created in 1963. Upon DRL’s creation in 1994, the labor
       position was moved into the bureau where it was given the rank of deputy assistant
       secretary, which diminished the tradition of directly reporting to the Secretary on
       labor issues. Nevertheless, according to the historical record, the transfer of labor
       from the Secretary’s office to DRL was meant to give the labor function higher
       visibility and a stronger base from which to operate by including labor in the name
       of the newly expanded bureau. The transfer also recognized the increasing link of
       the labor function to the human rights of workers and democratization programs.
       The labor profile was raised again in 1999 when the position of Special Representa-
       tive for International Labor Affairs, who reported to the Assistant Secretary, was
       established in DRL.

           Although meant to play a leading role in U.S. labor diplomacy, the IL office is,
       to a large degree, operating at the periphery of the bureau. Generally, employees
       feel marginalized and morale is low. With the special representative position vacant
       since March 2002 and the DAS responsible for the IL portfolio on an extended
       overseas detail, the office’s visibility has been reduced. In the past the United
       States was represented at major labor fora by the special representative or the DAS,
       but at the recent International Labor Organization convention the IL office director
       was the senior representative.

            Part of the difficulty may stem from the fact that in 2002 IL was plagued by
       staffing gaps and vacancies that impaired its ability to function. Some of the gaps
       were attributable to the Department of Labor’s refusal to allow its officials to
       perform details in the IL office. In 2002, five of seven positions in the office were
       vacant, including that of the deputy director. The office director was understand-
       ably overburdened. As a result, IL concentrated on the traditional task of ensuring
       that enforceable labor clauses are included in all U.S. trade agreements and that
       labor issues are considered in U.S. trade relations. The amount of work has signifi-
       cantly increased with renewed trade agreement negotiating authority granted to the
       U.S. Trade Representative. The first-ever position of Assistant U.S. Trade Represen-
       tative for Labor was created in 2000. At the time of the inspection, the office was
       almost at full staffing. There was a new deputy director, and a new director was
       expected within the next two months.

           The Assistant Secretary is very much focused on democracy and on program-
       ming to advance democracy, and he has often spoken of the importance of workers
       rights and labor issues in this effort. Nonetheless, when labor-related issues arise,


30 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



IL is often neither the action office or consulted. Overall, the IL office is concerned
that DRL front office principals sometimes deal with labor constituencies and do
not keep them apprised. Additionally, although IL is meant to be a principal
channel of communication between organized labor in the United States and the
Department, the AFL-CIO, for example, speaks increasingly to PHD because most
DRL funding and programming authority are located there. IL does not have a
representative on the DRL HRDF committee. The Partnership to Eliminate
Sweatshops Program was transferred from IL to PHD because of financial manage-
ment concerns during a period when the office was short staffed.

    The IL office is not able to work up to its potential and not able to apply its
resources to helping the bureau achieve its mission in the human rights area,
because it is not being fully used and integrated within the bureau. The Assistant
Secretary has indicated his intention to strengthen IL’s ability to make a greater
contribution.


   Recommendation 10: The Bureau of Democracy, Human Rights and Labor
   should implement a plan to ensure the Office of International Labor Affairs
   and its portfolio are better integrated into the bureau and that the Office of
   International Labor Affairs resources are used effectively to achieve bureau
   goals and objectives. (Action: DRL)



   Recommendation 11: The Bureau of Democracy, Human Rights and Labor
   should ensure that the Office of International Labor Affairs has a representa-
   tive on the Human Rights and Democracy Fund grants committee. (Action:
   DRL)




COORDINATION OF HUMAN RIGHTS CONDITIONALITIES




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   31 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       REGARDING ECONOMIC, FINANCIAL, ASSISTANCE, AND TRADE
       ISSUES
           The DRL/IL economist position was created in 2001 and placed in IL although
       it was meant to have bureau-wide responsibilities. The position has not been
       integrated into bureau operations and has never functioned as intended. It cur-
       rently appears marginal to bureau operations. A DRL intraoffice economic team
       functioned briefly in 1999-2000, but has not met since then. A recent proposal to
       revive the team in order to discuss economic mandates, bilateral agreements and
       labor rights, and integrate them with multilateral issues, received no response from
       the front office. The economist, who mostly reviews mandates that require the
       United States to restrict economic benefits to countries that violate human rights,
       has little interaction with the rest of DRL.

            The IL economist position is similar in nature to one in MLA, which deals with
       human rights certification of certain munitions exports, export-import bank loans,
       overseas private investment corporation guarantees, and Department of Commerce
       clearances for crime control items. In a further sign of diffused oversight responsi-
       bilities within the bureau, the PHD office works on Leahy Amendment assistance,
       which prohibits U.S. assistance to any unit of the security forces of a foreign
       country that is known to have committed gross human rights violations. In addi-
       tion, the previous special coordinator for human rights and democracy was the
       bureau’s representative during extensive Department discussions to set criteria for
       Millennium Challenge Account grant assistance. All of these positions focus on
       human rights considerations in the context of economic, financial, assistance, and
       trade issues. In that sense, the positions are complementary, and it is logical that
       they should reside together in whatever DRL entity is judged most appropriate.
       The combined unit would have the added benefit of facilitating more regular
       dialogue and early consultations with the Bureau of Economic and Business Affairs
       and the Office of the Under Secretary for Economic, Business, and Agricultural
       Affairs.




32 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


      Recommendation 12: The Bureau of Democracy, Human Rights and Labor
      should redefine the role of the Office of International Labor Affairs econo-
      mist and collocate this position, the complementary finance and trade position
      in the Office of Multilateral Affairs, and the parts of the Office of Human
      Rights and Democracy that deal with the Leahy Amendment and Millennium
      Challenge Account issues, to the bureau office deemed most suitable to house
      these combined functions. (Action: DRL)




OFFICE OF INTERNATIONAL RELIGIOUS FREEDOM
Background

    In 1996, the Department created the Advisory Committee on Religious Free-
dom Abroad, which included scholars and religious leaders. The Committee’s
interim report in 1998 and its final report in 1999 recommended that U.S. foreign
policy devote more attention to the promotion of religious freedom worldwide.
Congress concurrently took greater interest in the issues of religious discrimination
and persecution abroad. To respond to the committee and congressional interest,
the Department created the position of the Special Adviser for Religious Freedom.
The position, located in DRL, has a small staff, and was placed under the direction
of the DRL Assistant Secretary.

     The IRF Act was subsequently signed into law in October 1998.11 According to
the Act, “There is established within the Department of State an Office on Interna-
tional Religious Freedom that shall be headed by the Ambassador-at-Large for
International Religious Freedom.” The statute stipulated that the office and
ambassador-at-large would assist the Secretary in producing the annual report on
religious freedom, and that the ambassador-at-large would act as a principal adviser
to the President and the Secretary in matters concerning religious freedom abroad.
The annual report documents government policies affecting religious freedom and
U.S. policy with respect to each country. Although neither the act nor the legisla-
tive history is explicit as to the location or placement of the office within the
Department, established practice in the Department provided that offices of




11
     Pub.L.No. 105-292



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   33 .

                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       ambassadors-at-large be established at the highest levels and attached to the office
       of the Secretary.

             The incumbent Special Adviser for Religious Freedom became the first Ambas-
       sador-at-Large for International Religious Freedom in May 1999, and he remained
       within DRL with a small staff under the direction of the Assistant Secretary until
       late 2000. The first annual report on religious freedom covering 194 countries was
       produced in 1999, primarily through the efforts of the U.S. embassies that made the
       initial submissions, and DRL/CRA. The small size of the Ambassador’s staff
       limited their role to a largely advisory one in preparing the annual religious freedom
       reports.

           The current Ambassador-at-Large took office in May 2002. Apart from advis-
       ing on the religious freedom report, the IRF office monitors religious persecution
       and discrimination worldwide, assists the Ambassador-at-Large in his conduct of
       diplomacy, and recommends policies and develops programs to promote religious
       freedom. The office is interested in reaching out to all faith communities. The
       office recommends that particularly severe violators of religious freedom be desig-
       nated as “Countries of Particular Concern.” These nations could be subject to
       further actions, including economic sanctions, by the U.S. government. The office
       does not have any program funds.

       Office of Religious Freedom Staffing

           The current personnel in the IRF office are dedicated and maintain a high
       morale. Apart from the Ambassador-at-Large, IRF has one Schedule B position,
       one Schedule C position, two AAAS fellows, two FSOs (including the office
       director), one FSO vacancy, one authorized but as yet unfilled FSO slot, two Civil
       Service positions, and one office management specialist. One FSO slot will be
       converted to a Civil Service position when a current AAAS fellow finishes his
       tenure in September 2003.

           Many personnel in the IRF office have little sense of what the rest of DRL is
       doing and are not well integrated in the bureau, largely because of the unresolved
       organizational issues discussed below. Although some of the staff in IRF believes
       that they have been marginalized by the rest of DRL, many outside the office
       charge that IRF leadership has fostered and cultivated a sense of separation.




34 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Ambassador-at-Large

     According to 1 FAM 014.2, an ambassador-at-large is placed in organizational
level one under the Secretary, Deputy Secretary, and Under Secretaries. An ambas-
sador-at-large is not organizationally subordinate to an Assistant Secretary, who is
in level two. The two other ambassadors-at-large in the Department
(counterterrorism and war crimes issues) are treated organizationally as reporting to
the Secretary.

    Notwithstanding the FAM regulation, the IRF ambassador-at-large is perceived
in the Department as subordinate to the DRL Assistant Secretary. The Ambassa-
dor is required to send memoranda through the DRL Assistant Secretary, does not
attend the senior staff meetings with the Secretary, and is often not informed about
policy initiatives, taskings, and meetings of direct consequence to the religious
freedom issues in the Department or elsewhere in the government. These condi-
tions constrain the office’s ability to engage in or coordinate departmental and
interdepartmental activities that touch on issues of religious freedom.

    The structural problem has made the relationship between DRL’s Assistant
Secretary and the Ambassador-at-Large increasingly distant and strained. The
present arrangement does not adequately serve the religious freedom function that
was created by Congress. A disagreement on the preparation of the 2003 Report to
Congress on International Religious Freedom at the time of the inspection illus-
trates current and potential problems.

    Beginning in 1999, the CRA office in DRL was assigned responsibility for
editing all IRF reports, in part because of the small size of the IRF office, but also
because CRA was responsible for all bureau-wide reports. In the summer of 2002,
the IRF office provided one officer on an ad hoc basis to CRA to help in the editing
of the 2002 report. In the spring of 2003, the IRF office was asked by DRL to
provide four officers for the summer to help edit the 2003 report. Although the
number of IRF officers has grown since 1999, the office remains small. IRF argued
that assigning four officers to prepare the report would shut down most of its work.
In order to cope with new demands, CRA, with the support of the DRL front
office, has made clear its desire to transfer full responsibility for the editing and
publication of the annual religious freedom report to IRF. IRF notes that concrete
plans for such a transfer have not been developed, and that it presently lacks the
staff and other resources that would be needed to assume the responsibility. The




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   35 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       2005 BPP, which was done in the spring of 2003, stipulates that the IRF office will
       take over all preparation of the report for 2004. The IRF office did not concur
       with this proposal. However, the IRF office told OIG that it would be prepared to
       assume full responsibility for the report beginning in 2004, provided it is given the
       required staff and resources.

           Because of the dispute, the annual instructions for the 2003 IRF report, which
       should have been issued in April 2003, had not been sent to posts by the time the
       inspection concluded on July 2. The late May and early June deadlines for post
       submissions passed with no results. Of greater concern than the timely submission
       of the 2003 report, which is due in September, is the larger issue of ensuring the
       adequacy of arrangements and resources for fulfilling this congressional mandate
       over the longer term.


          Recommendation 13: The Assistant Secretary for the Bureau of Democ-
          racy, Human Rights and Labor and the Ambassador-at-Large for International
          Religious Freedom, in coordination with the Under Secretary for Global Af-
          fairs, should immediately resolve the impasse over the production of the 2003
          Office of International Religious Freedom report. They should also agree on
          a plan for producing the annual report in 2004 and subsequent years, includ-
          ing the provision of adequate personnel resources and clearly delineated roles
          and responsibilities. (Action: DRL, in coordination with G)


           Going beyond the issue of the preparation of the IRF report, the present
       structural disconnect between DRL and the IRF office must be resolved. Because
       resolving this issue requires fact-finding and consultation beyond the scope of this
       inspection, OIG is not in a position to recommend a particular solution.


          Recommendation 14: The Bureau of Democracy, Human Rights and Labor,
          in coordination with the Office of the Under Secretary for Global Affairs and
          the Office of the Under Secretary for Management, should reexamine the role
          and organizational status of the Ambassador-at-Large for International Reli-
          gious Freedom and the Office of International Religious Freedom, with a
          view to finding a satisfactory and workable solution. (Action DRL, in coordi-
          nation with G and M)




36 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                   DIPLOMATIC READINESS

BUREAU RESOURCES
     DRL has 23 FSO and 77 Civil Service authorized permanent positions. Addi-
tional staffing includes six Schedule Cs, three Schedule Bs, 14 WAEs, three AAAS
fellows, two National Science and Education Program Fellows and seven PMIs for
a total staffing complement of 132. For FY 2003, DRL has a Diplomatic and
Consular Program budget of $3.4 million for operating funds and $18 thousand for
public diplomacy. The bureau also manages foreign operations funds of $36.5
million for HRDF in FY 2003-04, increased from $13 million for FY 2002-03, and
$2 million for the Partnership to Eliminate Sweatshops Program for FY 2003-04,
decreased from $3.9 million for FY 2002-03.



PEOPLE MANAGEMENT AND MORALE
    Most DRL staff members said that they derived considerable satisfaction from
the importance of the work they were doing and from the knowledge that their
efforts often resulted in real improvements in people’s lives. Despite the generally
strong feelings of job satisfaction, the vast majority of employees at all levels
throughout the bureau described their own morale, and that of the bureau as a
whole, as low. Without exception, they attributed this to what they described as
poor management practices and a seeming lack of awareness or concern on the part
of the bureau’s leadership. This was also reflected in the low scores for both
management and morale on the personal and administrative services satisfaction
questionnaires.

    In part, the morale problem can be traced to the problems of communication
discussed earlier in this report, and to the prevailing perception that there exists a
significant gap between a small circle of bureau insiders, consisting largely but not
entirely of noncareer appointments, and the majority of bureau staff members.
The problem has been exacerbated by the perception of other management prac-
tices, such as clearance procedures that signal that office directors and other staff
members do not enjoy the full confidence of the DRL front office.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   37 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           Another factor is the manner in which the DRL leadership involves itself in the
       hiring and firing process. DRL leadership interviews and approves all new employ-
       ees, both Foreign Service and Civil Service. Consequent delays in the interviewing
       and hiring process are said to have occasionally resulted in the loss of good candi-
       dates who eventually opted to take jobs elsewhere. In one case it is said that DRL
       leadership refused to hire a candidate selected by the office director without any
       explanation. Examples were also given of decisions by the bureau leadership to
       remove employees from their positions without the involvement of office directors
       and other middle managers, or consultation with the affected employee.

           Beyond this, however, OIG received a significant number of complaints
       alleging that employees had been subjected to arbitrary or improper personnel
       actions that they felt were contrary to the spirit, if not the letter, of established
       merit system principles and rules. It was alleged, for example, that some employees
       had been deliberately denied opportunities to participate in meetings or discussions
       on issues for which they were nominally responsible; that some staff members had
       been “encouraged” by front office managers to leave the bureau and seek employ-
       ment elsewhere; that others had their jobs redefined in ways that reduced both their
       substantive responsibilities and their promotion prospects; and, that still more had
       returned from extended leave or details to other agencies to find that they had been
       replaced or that their original jobs had been substantially changed. Personnel
       actions were not processed by the EX office to make these reassignments, nor were
       position descriptions revised to reflect changes in duties and responsibilities. There
       is widespread perception that many of these actions and decisions were arbitrary
       and unjustified and that they were made without regard to the person’s skills and
       contributions, or the potential impact on their careers.

            OIG was not in a position to investigate these allegations thoroughly. Nor was
       it able to establish that any specific personnel or merit system regulation had been
       violated. Nevertheless, the number and nature of the concerns expressed raised
       serious questions as to whether the bureau’s personnel practices are consistent with
       the bureau’s obligation to its employees. Given these concerns, as well as the
       problems of performance and capacity in EX staff discussed later in this report,
       OIG believes that an oversight review of the bureau’s delegated personnel authori-
       ties is justified.




38 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 15: The Bureau of Democracy, Human Rights and Labor
   should ask the Bureau of Human Resources to conduct an oversight review
   of the management of its delegated personnel authorities to ensure that the
   human resources management program is in compliance with merit system
   principles and to determine whether the bureau should retain delegated per-
   sonnel authorities. (Action: DRL, in coordination with M/DGHR)


    OIG found problems in the bureau involving poor performance and miscon-
duct, including belligerent and disruptive behavior. Some of these problems are
long standing, predating the arrival of the current DRL management team. Never-
theless, the current leadership has been faulted both by DRL employees and knowl-
edgeable outside observers for failing to act promptly and aggressively to resolve
these performance and conduct issues. Many staff members do not perceive that
there is someone in the DRL front office to whom they can turn to for support and
assistance in dealing with such issues. As a consequence, some middle managers
are reluctant to assume responsibility at their levels for fear that they will not be
supported.

     DRL has long had a problem in recruiting career staff, especially FSOs, to fill
bureau positions. The generally low morale of bureau staff, and DRL’s reputation
for personnel management, are additional factors adversely affecting the bureau’s
ability to recruit and retain quality employees.

    DRL does not have a formal orientation program for new employees. A num-
ber of employees commented that they received an inadequate orientation during
their check-in with the bureau’s personnel division. They were given a welcome
packet and self-help check-in list and then turned over to their immediate supervi-
sor. DRL comprises several distinct offices working on a diverse range of issues.
Newly assigned employees would benefit from a more formal orientation to under-
stand bureau goals and policy issues.


   Recommendation 16: The Bureau of Democracy, Human Rights and Labor
   should develop and implement a formal orientation program for all new em-
   ployees. (Action: DRL)




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   39 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           At the time of the inspection, there were no untenured FSOs in the bureau.
       This is unusual given the bureau’s size and mix of staff and its stated interest in
       developing within the Foreign Service a cadre of officers both knowledgeable
       about, and professionally committed to, human rights issues. This absence of
       junior officers hinders the long-term process of training qualified personnel in this
       area.


          Recommendation 17: The Bureau of Democracy, Human Rights and Labor
          Bureau should establish a plan to make more positions in the bureau open to
          junior Foreign Service officers, and to encourage junior officers to bid on
          these positions. (Action: DRL)




       OFFICE OF THE EXECUTIVE DIRECTOR
           OES-DRL/EX provides administrative support and service to two functional
       bureaus and to the separate Office of the Science and Technology Adviser to the
       Secretary. This is an unusual organizational arrangement that adds a level of
       complexity to the executive office operation not found in most other executive
       offices. OES-DRL/EX is one of the few combined executive directorates in the
       Department.

           Both the executive director and deputy director positions are experienced,
       capable FSOs. Most of the staff in DRL is civil service. The deputy oversees the
       day-to-day running of the executive directorate office with the four division chiefs
       reporting directly to him. The deputy provides support to both bureaus but func-
       tions as the executive director for DRL. The goal of the office is to provide the
       same level of support to both bureaus, but there are often conflicting and compet-
       ing priorities between the two bureaus.

            Progress is being made in improving customer service and standardizing proce-
       dures in the directorate, mainly because of the hard work and constant attention of
       the executive director and deputy. The major problems over the past several years
       have been the generally low morale of the staff, conduct issues, poor performance,
       and a weak sense of customer service. The impact of these problems is reflected
       in the marginal scores the executive directorate office received in the OIG adminis-
       trative services satisfaction questionnaire and in an OES-DRL/EX customer
       satisfaction survey conducted last year. With diligent effort some improvements
       have been made, but the situation overall is not good. The staff has been sent to


40 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



team building, leadership, functional, and customer service training. A Foreign
Service Institute trainer is mentoring the division chiefs. The present staff size and
skills mix are appropriate to meet operational requirements, but the quality of the
work is often below standard.

    The OES-DRL/EX director continues to work with the Employee Relations
Office in DGHR for guidance on performance and discipline issues. Personnel
regulations are followed in all cases, and documentation is made for the issues
involved. In addition, directorate management, including the division chiefs,
provide hours of counseling and training. Because of constraining Civil Service
personnel regulations and procedures, directorate management has not yet been
able to terminate any of the problem employees. Poor performers have been
placed on performance improvement plans, but because they have shown marginal
improvement, they must be retained. The director requires the division chiefs to
write honest performance evaluations, and some of the staff received satisfactory
ratings rather than the excellent or outstanding ratings received in previous years.

     Despite the performance problems, OES-DRL/EX manages to get the work
done, but time and effort are heavily invested. This situation is exacerbated by the
constant rotation of FSOs in and out of the director and deputy director positions
that affords little continuity. There is a difficult learning curve for newcomers, not
only because of the complexities of the dual responsibilities of this office, but also
for the performance capabilities of the staff. Not all FSOs are able or even willing
to take on these issues in a two-year assignment. The staff remarked that they
would like OES-DRL/EX management to be more involved in day-to-day opera-
tions. Most of the staff said that morale was low and that they do not believe they
receive management support unless it involves a front office request. In contrast,
OES-DRL/EX management does not believe that they receive adequate support
from DRL management, even as bureau management continues to make un-
planned, large requests. This is a difficult situation for the OES-DRL/EX manag-
ers who have administrative management responsibility for two separate and
distinct bureaus. Both bureaus have competing priorities. The focus then is more
on the immediate problem and not on improving the process.

    Many OES-DRL/EX employees recommended that one of the management
positions be converted to Civil Service. Converting the Foreign Service deputy
executive director position to Civil Service would provide continuity but would not
address the stretched loyalties of OES-DRL/EX management between the DRL
and OES bureaus. The OES workload is generally two to three times greater than
that of DRL. As a result, the OES-DRL/EX staff, including the director, devotes
more time and attention to the larger OES bureau. There appears to be a lack of


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   41 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       accountability in this combined executive directorate office and a tendency to
       evade responsibility when problems are encountered. There is also no clear line of
       authority when responsibility for the administrative support is shared between two
       bureaus and two executive directors managers. Splitting the OES-DRL/EX office
       into two separate executive offices for each bureau would give the work of DRL
       the focus, support, and accountability it needs. Precedence for establishing a
       separate executive office for a small bureau was set in March 2002 when the
       Bureau for Legislative Affairs split off from the Executive Secretariat, Office of
       the Executive Director.

           During the inspection survey, OES discussed problems it has with the OES-
       DRL combined executive office and proposed to split the executive office or
       convert one of the Foreign Service executive director management positions to
       Civil Service. OES questions the ability of OES-DRL/EX to manage two sepa-
       rate bureaus and feels it requires too much coordination and overlap. A combined
       executive directorate does afford more economies of scale and separate offices
       would require more resources and more positions. However, the workload for both
       bureaus has grown in recent years and is likely to grow in the future. During the
       inspection, consideration was being given to adding support for the new AIDS
       coordinator office to OES-DRL/EX. Given the current capacity and performance
       problems of the combined executive directorate, OIG does not believe that it
       could support an additional workload unless the office was split. Split executive
       directorates could also relieve the Under Secretary for Global Affairs’ office of its
       current responsibility for the offices of trafficking in persons and international
       women’s issues. OES and DRL are complex policy driven bureaus with most of
       their work program based. A small and separate executive directorate office for
       DRL would provide management with dedicated administrative support and
       assistance in meeting bureau goals and objectives.

           Establishing an executive directorate office for DRL would require abolishing
       positions in OES-DRL/EX and creating new positions in the separate DRL/EX.
       All of the OES-DRL/EX positions are against the OES bureau complement, and
       some positions would have to be transferred to the DRL bureau and/or new
       positions requested. A split would open up opportunities to address some of the
       performance problems with the current executive directorate staff through reorga-
       nization. A Civil Service deputy position could be established to provide the
       needed continuity. Duties and responsibilities would have to be redefined and
       employees reassigned or possibly terminated through reduction in force. This is not
       the ideal way to remedy these problems, but given the effort already expended by
       OES-DRL/EX office management and division supervisors, and the meager results
       to date, it may be necessary.


42 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 18: The Bureau of Democracy, Human Rights and Labor
   should implement a plan and a memorandum of understanding with the Bu-
   reau of Oceans and International Environmental Scientific Affairs, in coordi-
   nation with the office of the Under Secretary for Global Affairs, to create a
   separate Executive Office. (Action: DRL, in coordination with OES and G)




FINANCIAL MANAGEMENT DIVISION

     One strength of the OES-DRL/EX office is the financial management divi-
sion. The division chief is a financial and technical expert and is effective in
managing the DRL financial program, but she is not as effective in managing the
division staff. Under the guidance of the OES-DRL/EX director and deputy, her
performance as a supervisor has notably improved. To build on her financial
knowledge, the division chief has become more involved in the policy side of DRL
to understand where the money goes that is managed by the OES-DRL/EX finan-
cial division.

     Overall, this division provides good financial support and service to the bureau.
The division is responsible for budget formulation, financial planning, developing
financial processes, and financial oversight for all funds appropriated and allotted
to DRL. A significant portion of the budget is foreign operations or grants funding
and administration. Because DRL received a sizeable increase this fiscal year in
grants funding, an additional position to manage these funds was established and
filled. With this new position, the staff size of the financial division is appropriate
to manage the workload. There is one financial management specialist dedicated to
DRL. The two grants administration specialists and two travel assistant positions
support both DRL and OES bureaus.

    Timely awards of HRDF grants is critical to the support of programs promoting
human rights, democracy, religious freedom, and labor rights. Because the political
environment in many of these countries is extremely volatile, time is of the essence
in implementing these programs. It is important that DRL have sufficient re-
sources, in terms of staff, travel funds, and grant-processing support from A to
ensure that all possible steps are taken to expedite and facilitate the award, imple-
mentation, and post-award monitoring of these grants. Conflicts sometime arise
between the OES-DRL/EX grant administrators and front office grants managers
over responsibilities.


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   43 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           There are performance problems in the travel section of this division, however,
       that hurt the quality of service provided to the bureau. Through counseling and
       mediation sessions, common ground has been established. The senior and lead
       financial specialist has been tasked to provide direction and act as an intermediary.



       GENERAL SERVICES DIVISION
           The four-person general services team is effective and provides good overall
       support to bureau personnel. However, OIG found some deficiencies in its internal
       operations, specifically in property management (see the management controls
       section of this report).

            The EX office has two receiving officers for supplies and equipment that
       inspect and sign all incoming deliveries. A nonexpendable property application bar
       code is placed on appropriate items and the information is recorded by hand to a
       customized receiving worksheet for nonexpandable property. This worksheet has
       sections that no longer apply due to changes in Department regulations and was
       last revised in 1992. In reviewing the worksheets for FY 2002, OIG found that
       some sections, such as the signature of the responsible officer, replacement year,
       location of the item, and invoice cost, were incomplete. A revised, updated
       electronic worksheet would be more efficient and could be used as a tool for
       inventory accountability. The division should also consider using standard Depart-
       ment receiving forms. OIG made an informal recommendation in this regard.

            The OES-DRL/EX office has drafted two memorandums to all DRL bureau
       employees on the overall policy on telephone usage and on the use of cell phones.
       At the time of the inspection, the memorandums have not been approved or
       distributed. Currently, telephone calls are not being accurately certified. Until
       earlier this year, the general services division provided a print out and charged
       telephone costs to each office. This is no longer being done, and the print out of
       charges for telephone usage goes directly to the financial management division for
       payment. As a result, bureau employees cannot certify the official calls or reim-
       burse the Department for personal calls.


          Recommendation 19: The Bureau of Democracy, Human Rights and Labor
          should complete and distribute standard operating procedures to all bureau
          personnel on telephone usage and on the assignment and use of cell phones.
          (Action: DRL)



44 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    DRL has no policy on who should have a cell phone. Informally it is under-
stood that office directors and above should have one, but OIG found that others
below the rank of office director have a government-issued cell phone. In review-
ing cell phone bills, OIG found there were patterns of calls made to the same
numbers sometimes after working hours. Cell phone users also do not certify
official calls or make reimbursement for their personal calls.


   Recommendation 20: The Bureau of Democracy, Human Rights and Labor
   should establish written procedures for the assignment of cell phones and for
   reimbursement to the bureau for personal calls. The bureau should also rou-
   tinely provide each office and all cell phone users with a print out of tele-
   phone charges to certify official calls. (Action: DRL)




INFORMATION MANAGEMENT DIVISION
    The quality of service the information management division provides is ad-
equate, particularly when considering that the division supports a total of about
350-400 users in both DRL and OES. The responses to OIG administrative
services satisfaction questionnaires indicate more emphasis should be placed on the
delivery of services. In reviewing the help desk log of requests from users, OIG
concluded that customer service, although responsive, would benefit from closer
monitoring on the length of time it takes to complete user requests. There are
three direct hire employees, seven computer support personnel on contract, and
one temporary employee to maintain a help desk, servers and networks for two
bureaus, and all computer equipment. There is low morale in the information
management division in part because of the perception of disengaged management.

    OIG found shortcomings in information systems security. Although DRL has
designated an information systems security officer and an alternate, neither one is
performing the full scope of the duties. One problem identified is that the infra-
structure systems manager is also one of the designated information systems
security officers. This creates a potential for conflicts of interest and diminishes
management control. The information systems security officer should be separate
from the infrastructure systems manager.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   45 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




          Recommendation 21: The Bureau of Democracy, Human Rights and Labor
          should designate, in accordance with 12 FAM 662.1, an alternative informa-
          tion systems security officer to provide an adequate separation of duties. (Ac-
          tion: DRL)




       HUMAN RESOURCES DIVISION
           Human resources (HR) management for DRL and OES is under the leadership
       of the executive director for OES-DRL/EX. Since 1996, the OES-DRL/EX
       director has been delegated personnel authority by the Director General of the
       Foreign Service and Director of Human Resources for classification, staffing,
       performance management, and employee relations functions at and below the GS-
       13 grade level. The most recent memorandum of understanding between the
       bureaus and DGHR was signed June 2000 and remains in effect. (b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)

            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)

            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)

            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)



46 .                   OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
                                                                   . The director
has asked for assistance from DGHR in identifying an experienced HR specialist
for the OES-DRL/EX office. The specialist would serve as a team leader focusing
on establishing standard operating procedures, developing bureau policies on
human resources management, and providing oversight and training to the HR
staff. OIG agrees this would be a good solution in the short term.


   Recommendation 22: The Bureau of Democracy, Human Rights and Labor
   should ask that the Bureau of Human Resources identify an experienced hu-
   man resources management specialist to the Human Resources Division of
   the Executive Office to establish policies and procedures, to put systems in
   place, and to provide oversight and training to the division staff. (Action:
   DRL, in coordination with M/DGHR)


Foreign Service Recruitment

    A WAE retired FSO working with the HR supervisor manages the Foreign
Service employment program. Recruiting FSOs to fill positions in DRL is a chal-
lenge. The office directors are actively engaged in the recruitment process, but the
process would benefit from more front office attention to attract interested and
qualified candidates. There are a few problems with Foreign Service recruitment
beyond the control of the WAE, most notably in the IRF office. There are four
FSO positions that remain, or were vacant long into the recruiting cycle. OIG
suggested that the DRL HR supervisor and the specialists receive training on the
Foreign Service personnel system and become more involved, as almost one-fourth
of DRL full-time staff is Foreign Service.

Personnel Authorities

    In November 1998, the Office of Civil Service Personnel in DGHR conducted
an oversight review of personnel authorities delegated to OES and DRL. The
assessment by the office in April 1999 concluded that overall improvement was
needed in the management of delegated personnel functions, and the required
actions or recommendations were made.

     The OES-DRL/EX office did not respond to the oversight review until
February 2000. At that time the office addressed the compliance actions taken on
the requirements and recommendations made in the oversight review, and as a
result some improvements were made. These included establishing complete merit


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   47 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       promotion files, an effort accomplished earlier this year. Because of extensive
       turnover in the DRL HR division in 2000 and the arrival of a new supervisory HR
       specialist, there was some discussion between the executive directorate office and
       DGHR to temporarily rescind DRL’s delegated personnel authorities. Based on
       the OIG inspection, DRL needs to continue improvement in its management of
       delegated human resources functions. Program areas that require attention are
       classification, position management, employee relations, performance evaluation,
       and records review.

           A separate memorandum will be provided by OIG to DRL and the Office of
       Civil Service Personnel in DGHR that identifies possible violations and possible
       grievances, as well as problems OIG has identified with specific positions and
       employees. DRL has 11 temporary hiring waivers, some to fill behind employees
       on detail, others to convert employees under PMI or career development programs.
       The bureau may not have permanent positions to convert the PMI or career devel-
       opment employees at the end of the program as required. There was a vacancy
       announcement for a permanent appointment to fill a temporary hiring waiver, but
       management decided not to make a selection. Bureau management has been
       reluctant to ask for any additional permanent positions but continues to ask for
       temporary hiring waivers. DRL would benefit from doing more workforce planning
       with DGHR.

           Several position classifications need to be reviewed. Positions on the staffing
       pattern are in one location, when in reality the positions are performing different
       functions in other locations. Duties and responsibilities of other employees have
       been changed without the position descriptions being revised. Other position
       management problems include reassigning employees without processing a person-
       nel action. The memorandum is intended to assist the EX office and the Office of
       Civil Service Personnel in DGHR during the oversight review to regularize the
       position classification, appointment, and personnel actions.

           Time constraints on the OIG inspection did not allow an in depth review of a
       majority of the personnel actions or position classifications. In the reviews com-
       pleted, no clear violations of Civil Service regulations and procedures were identi-
       fied. The appearance of irregularities, however, was a concern raised frequently by
       DRL staff. Given these concerns and the problems of performance and capacity in
       OES-DRL/EX staff, OIG believes that an oversight review of the bureau’s del-
       egated personnel authorities is justified.




48 .                OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



SECURITY
    DRL has designated a principal security officer for the bureau and individual
security officers for each bureau office. There are security procedures and guide-
lines in place, but the bureau needs to increase its security awareness. (b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)



   Recommendation 23: The Bureau of Democracy, Human Rights and Labor
   should reissue security procedures and guidelines clearly stating Department
   security policy and require all bureau personnel, including unit security offic-
   ers, to take refresher security briefings to ensure compliance with security
   practices. (Action: DRL, in coordination with DS)




EQUAL EMPLOYMENT OPPORTUNITY
    There have been no formal EEO complaints filed, and no informal complaints
are in process in DRL. Four bureau employees are assigned collateral duties as
EEO counselors. Awareness and sensitivity to EEO scored about average in the
OIG administrative questionnaire. There were a few EEO complaints filed in
previous years that were either dropped or resolved. OIG did not find any specific
EEO related problems in discussions with bureau staff. A suggestion was made to
more widely publicize the names of the bureau EEO counselors, along with basic
complaint procedures and requirements.

    The EEO office has offered advice and counsel to the bureau’s leadership on
both EEO matters and broader personnel management issues. Most of the issues
presented as EEO matters were in fact traceable to other problems and deficiencies
in the bureau’s handling of personnel issues. However, there is a concern that
these broader personnel management problems, if not addressed, could lead to
genuine EEO complaints in the future.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003              49 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




50 .    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                 MANAGEMENT CONTROLS
    The management controls program for DRL is acceptable. The OES-DRL/EX
executive director is the designated management controls officer. Responsibility for
management controls is included in both the OES-DRL/EX director’s and deputy
director’s work requirements. The bureau completed a risk assessment review prior
to the inspection. The results and evaluation by the Bureau of Resource Manage-
ment determined that overall scores indicated that DRL has moderate risk. Overall
controls were adequate, with two areas that need to be strengthened. Two of the
bureau offices scored marginally below the Department standard of 75 percent or
less in either general control environment or management control standards. OIG
found the lower scores might reflect misunderstanding of the risk assessment
questionnaire rather than program vulnerabilities. During the inspection, the risk
assessment results were under review by office managers to determine whether
corrective action plans and improvements in management controls could be made.

    The inspection did reveal the following weaknesses in some administrative and
program areas where management and internal controls require attention and can
be improved.



TRAVEL
    Complaints about late travel authorization requests and slow travel voucher
processing were significant in the OIG administrative services satisfaction ques-
tionnaire. The large amount of travel in both DRL and OES creates a great de-
mand for travel services from two OES-DRL/EX employees. DRL has requested
an increase in travel funds for FY 2004. One employee oversees travel authoriza-
tions and the other processes travel vouchers. The bureau made travel manager
training mandatory for all employees and continues to offer brown bag lunch travel
manager workshops. Despite the training, most travel requests and vouchers are
prepared by the office management specialists and not the individual traveler,
creating an intermediary layer that slows down and confuses the process.

    As discussed under the Diplomatic Readiness section of this report, there are
performance problems in the travel unit that hinder operations. But the travel unit




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   51 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       problems go beyond performance issues. There are several detailed standard
       operating procedures in place on all aspects of travel that some DRL employees
       tend to ignore. Requests for travel authorizations are often made at the last
       minute, vouchers include improper claims for reimbursement that must be returned,
       vouchers are submitted several days and even months late with demands for
       prompt payment, and several filings of vouchers are outstanding. Adding to the
       problem is the volume of authorizations and vouchers that must be processed.
       OIG suggested that the bureau consider hiring a third fully qualified travel assistant
       to work in the section to meet the workload demand. Another alternative would be
       to reassign some of the nontravel related duties from the senior travel position to
       allow more time for closer oversight and additional training. OIG also suggested
       that the bureau strengthen and reissue its standard operating procedures on travel,
       and encourage travelers to prepare more of their own authorizations and vouchers.

           In 2002, DRL tightened management controls on the use of government travel
       cards after several instances of delinquent accounts and inappropriate uses of the
       card were uncovered. The EX office issued a standard operating procedure on
       travel card use, sent e-mails to all bureau employees to remind them that misuse of
       the travel card is a serious offense, and requested the assistance of all office direc-
       tors and supervisors to ensure their staff understood the regulations. Disciplinary
       actions were taken on persons found in violation, and others were counseled. The
       travel section completes a monthly check on all accounts of bureau government
       travel cardholders.



       PROPERTY MANAGEMENT
           DRL completed its annual property inventory reconciliation for FY 2002,
       which showed a 2.2 percent loss of the total inventory. Department regulations
       require that any inventory loss greater than one percent be reported to the property
       survey board. DRL complied with this regulation. To date, the survey board has
       not taken any action. The OES-DRL/EX office believes the reason for the inven-
       tory loss is that some of the missing items were properly disposed of but were
       never deleted from the nonexpandable property application system. There was no
       indication that control weaknesses resulted in theft of property. OIG found that
       better record keeping for receiving, disposal, transfer and reconciliation of property
       is needed to establish an accurate baseline for future inventories. OIG suggested
       several constructive steps to strengthen controls, such as consolidating disposal




52 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



records, maintaining paper copies of record updates, and scheduling general inven-
tories well in advance to allow adequate time for reconciliation of any discrepan-
cies. Before the inspection, the general services division started to implement a
more effective inventory control system. OIG made an informal recommendation
in this area.



TIME AND ATTENDANCE
    Proper procedures for time and attendance have not always been followed, and
adequate records have not been maintained. Time and attendance has not been
reported accurately in previous years, and there were allegations of insufficient
oversight of the procedures. The bureau recognized the problem and assigned time
and attendance record keeping to three front office support staff, each with their
own password, and the responsibility rotated every pay period. Improvements have
been made, but controls over time and attendance still need to be tightened. The
OIG review indicated that supervisors have not been consistently responsible in
monitoring and approving the time and attendance of their staff. They have not
been counseling people who may be abusing leave. An OIG review of time and
attendance records indicated leave slips approved by the supervisor are not rou-
tinely turned in with the employee’s timesheet, timesheets are not reviewed and
signed in all cases by the supervisor, some timesheets are missing from employees
on detail, a few employees with negative leave balances do not have approval for
advanced leave, and the final time and attendance reports are not always reviewed
and signed by the office directors. OIG made informal recommendations to ad-
dress these problems.



PERFORMANCE EVALUATIONS
    Foreign Service and Civil Service performance evaluations require bureau
management attention. There are no standard operating procedures in place. Work
requirements statements or performance plans have not been submitted for the
majority of DRL employees and are overdue. During the past rating period, the
bureau had to ask for an extension of the submission deadline on several Foreign
Service evaluation reports to avoid being delinquent. The bureau did complete the
evaluation reports and did identify delinquent raters. However, there were three
Foreign Service and three Civil Service evaluations incomplete as of June 24, 2003.
In addition, there were no indications that mid-year progress reviews were com-


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   53 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       pleted. DRL needs to strengthen management controls by focusing more on work
       planning, counseling, and performance evaluation.


          Recommendation 24: The Bureau for Democracy, Human Rights and Labor
          should, in accordance with 3 FAH-1 H-2815.1(a)(1) and 3 FAH-1 H-
          2823.1(b), ensure that work requirements statements for Foreign Service em-
          ployees and performance plans for Civil Service employees are completed by
          the applicable due date. (Action: DRL)




       HUMAN RESOURCES MANAGEMENT
           There are no DRL policies or standard operating procedures in place for HR
       management programs. Some of the policies and procedures that need to be
       established include employee relation issues, time and attendance, performance
       evaluations, work requirements, incentive awards, and training. Standard operating
       procedures should reflect overall bureau policy and be in compliance with Depart-
       ment human resources program regulations.


          Recommendation 25: The Bureau for Democracy, Human Rights and Labor
          should establish policies and procedures on human resources management
          programs. (Action: DRL, in coordination with M/DGHR)


            The HR division implemented and maintains a monthly vacancy report and
       arrival/departure report on Foreign Service personnel. A number of position
       descriptions are outdated and/or do not accurately reflect the duties and responsi-
       bilities assigned to the position. A routine review of position descriptions to
       ensure their accuracy and that they are properly classified is good position manage-
       ment. The HR specialist for DRL has organized position descriptions by office and
       is working towards reviewing all position descriptions one office at a time. OIG
       suggested that a vacancy review of every position be done as part of the recruit-
       ment process and that position descriptions be reviewed and updated during the
       annual performance evaluation cycles.




       INFORMATION MANAGEMENT INVENTORY

54 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    The information management division does not maintain, either manually or in
the Worldwide Property Accountability System, an inventory of its information
technology equipment. There is no accountability for any missing equipment and
no controls to reduce exposure to loss. There is a lack of coordination between the
information management division and the general services division on inventory
responsibilities and access to computer equipment. The information management
division has begun drafting internal inventory procedures to include coordination
with general services division staff, instituting a “no move” equipment policy and
restricting access to storage space.


   Recommendation 26: The Bureau of Democracy, Human Rights and Labor
   should, in accordance with 5 FAM 842.6, maintain an inventory of informa-
   tion technology equipment and conduct an annual inventory reconciliation of
   the recorded inventory to the physical inventory. (Action: DRL)




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   55 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




56 .    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




             LIST OF RECOMMENDATIONS

Recommendation 1: The Bureau of Democracy, Human Rights and Labor should
  rationalize the present ad hoc management structure of the front office and re-
  align responsibilities in such a way as to assign clear responsibility for manage-
  ment of the bureau’s day-to-day operations. (Action: DRL)

Recommendation 2: The Bureau of Democracy, Human Rights and Labor, in
  coordination with the Bureau of Human Resources and the Bureau of Adminis-
  tration, should ask that the Bureau of Administration be given sufficient addi-
  tional grants officer positions to service their bureaus grants. (Action: DRL, in
  coordination with M/DGHR and A)

Recommendation 3: The Bureau of Democracy, Human Rights, and Labor
  should provide cross training for programming and policy staff as deemed ap-
  propriate to ensure continuity of program monitoring and evaluation. It should
  also determine what additional staff is required for a more systematic monitor-
  ing and evaluation function and implement a plan for meeting that requirement.
  (Action: DRL, in coordination with M/DGHR)

Recommendation 4: The Bureau of Democracy, Human Rights, and Labor
  should reorganize the structure of the Office of Strategic and External Affairs
  to improve efficiency and to clarify lines of authority and responsibility. In par-
  ticular, the position of the senior adviser for strategic planning and external af-
  fairs should be abolished or reprogrammed, taking advantage of the incumbent’s
  recent move to the position of senior coordinator for human rights and democ-
  racy. (Action: DRL)

Recommendation 5: The Bureau of Democracy, Human Rights, and Labor, in
  coordination with the Bureau of Human Resources, should review the three
  public diplomacy positions (Position numbers U-00410-00, U-00411-00, and S-
  86806-00) in the Office of Strategic and External Affairs to determine whether
  any or all should be reprogrammed as public affairs positions. (Action: DRL, in
  coordination with M/DGHR)

Recommendation 6: The Bureau of Democracy, Human Rights and Labor should
  ensure that the Office of Country Reports and Asylum Affairs receives addi-
  tional staff to process asylum cases and that these employees remain dedicated
  to this function throughout the year. (Action: DRL)



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   57 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Recommendation 7: The Office of the Legal Adviser should respond to the Bu-
         reau of Democracy, Human Rights and Labor regarding options for handling
         Bureau of Citizenship and Immigration Services asylum applications and pro-
         vide any needed assistance. (Action: L)

       Recommendation 8: The Bureau for Democracy, Human Rights and Labor, in
         conjunction with other planned improvements to the asylum function, should
         develop a system to track asylum cases and prioritize the order in which they are
         processed. (Action: DRL)

       Recommendation 9: The Bureau for Democracy, Human Rights and Labor and
         the Bureau for International Organizations should clarify the respective roles of
         the two bureaus relating to the Department’s responsibility for human rights and
         democracy issues in United Nations bodies. The two bureaus should create a
         process for defining responsibilities on issues of mutual concern and for devel-
         oping options for senior policy makers to consider with a view to establishing
         long-term strategy for advancing human rights objectives in the multilateral
         fora. (Action: DRL and IO)

       Recommendation 10: The Bureau of Democracy, Human Rights and Labor
         should implement a plan to ensure the Office of International Labor Affairs and
         its portfolio are better integrated into the bureau and that the Office of Interna-
         tional Labor Affairs resources are used effectively to achieve bureau goals and
         objectives. (Action: DRL)

       Recommendation 11: The Bureau of Democracy, Human Rights and Labor
         should ensure that the Office of International Labor Affairs has a representative
         on the Human Rights and Democracy Fund grants committee. (Action: DRL)

       Recommendation 12: The Bureau of Democracy, Human Rights and Labor
         should redefine the role of the Office of International Labor Affairs economist
         and collocate this position, the complementary finance and trade position in the
         Office of Multilateral Affairs, and the parts of the Office of Promotion of Hu-
         man Rights and Democracy that deal with the Leahy Amendment and Millen-
         nium Challenge Account issues, to the bureau office deemed most suitable to
         house these combined functions. (Action: DRL)

       Recommendation 13: The Assistant Secretary for the Bureau of Democracy, Hu-
         man Rights and Labor and the Ambassador-at-Large for International Religious
         Freedom, in coordination with the Under Secretary for Global Affairs, should
         immediately resolve the impasse over the production of the 2003 Office of In-
         ternational Religious Freedom report. They should also agree on a plan for pro-



58 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



   ducing the annual report in 2004 and subsequent years, including the provision
   of adequate personnel resources and clearly delineated roles and responsibilities.
   (Action: DRL, in coordination with G)

Recommendation 14: The Bureau of Democracy, Human Rights and Labor, in
  coordination with the Office of the Under Secretary for Global Affairs and the
  Office of the Under Secretary for Management, should reexamine the role and
  organizational status of the Ambassador-at-Large for International Religious
  Freedom and the Office of International Religious Freedom, with a view to
  finding a satisfactory and workable solution. (Action DRL, in coordination with
  G and M)

Recommendation 15: The Bureau of Democracy, Human Rights and Labor
  should ask the Bureau of Human Resources to conduct an oversight review of
  the management of its delegated personnel authorities to ensure that the human
  resources management program is in compliance with merit system principles
  and to determine whether the bureau should retain delegated personnel authori-
  ties. (Action: DRL, in coordination with M/DGHR)

Recommendation 16: The Bureau of Democracy, Human Rights and Labor
  should develop and implement a formal orientation program for all new employ-
  ees. (Action: DRL)

Recommendation 17: The Democracy, Human Rights and Labor Bureau should
  establish a plan to make more positions in the bureau open to junior Foreign
  Service officers, and to encourage junior officers to bid on these positions. (Ac-
  tion: DRL)

Recommendation 18: The Bureau of Democracy, Human Rights and Labor
  should implement a plan and a memorandum of understanding with the Bureau
  of Oceans and International Environmental Scientific Affairs, in coordination
  with the office of the Under Secretary for Global Affairs, to create a separate
  Executive Office. (Action: DRL, in coordination with OES and G)

Recommendation 19: The Bureau of Democracy, Human Rights and Labor
  should complete and distribute standard operating procedures to all bureau per-
  sonnel on telephone usage and on the assignment and use of cell phones. (Ac-
  tion: DRL)




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   59 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Recommendation 20: The Bureau of Democracy, Human Rights and Labor
         should establish written procedures for the assignment of cell phones and for
         reimbursement to the bureau for personal calls. The bureau should also rou-
         tinely provide each office and all cell phone users with a print out of telephone
         charges to certify official calls. (Action: DRL)

       Recommendation 21: The Bureau of Democracy, Human Rights and Labor
         should designate, in accordance with 12 FAM 662.1, an alternative information
         systems security officer to provide an adequate separation of duties. (Action:
         DRL)

       Recommendation 22: The Bureau of Democracy, Human Rights and Labor
         should ask that the Bureau of Human Resources identify an experienced human
         resources management specialist to the Human Resources Division of the Ex-
         ecutive Office to establish policies and procedures, to put systems in place, and
         to provide oversight and training to the division staff. (Action: DRL, in coordi-
         nation with M/DGHR)

       Recommendation 23: The Bureau of Democracy, Human Rights and Labor
         should reissue security procedures and guidelines clearly stating Department
         security policy and require all bureau personnel, including unit security officers,
         to take refresher security briefings to ensure compliance with security practices.
         (Action: DRL, in coordination with DS)

       Recommendation 24: The Bureau for Democracy, Human Rights and Labor
         should, in accordance with 3 FAH-1 H-2815.1(a)(1) and 3 FAH-1 H-2823.1(b),
         ensure that work requirements statements for Foreign Service employees and
         performance plans for Civil Service employees are completed by the applicable
         due date. (Action: DRL)

       Recommendation 25: The Bureau for Democracy, Human Rights and Labor
         should establish policies and procedures on human resources management pro-
         grams. (Action: DRL, in coordination with M/DGHR)

       Recommendation 26: The Bureau of Democracy, Human Rights and Labor
         should, in accordance with 5 FAM 842.6, maintain an inventory of information
         technology equipment and conduct an annual inventory reconciliation of the
         recorded inventory to the physical inventory. (Action: DRL)




60 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          INFORMAL RECOMMENDATIONS


OFFICE OF STRATEGIC AND EXTERNAL AFFAIRS

    In August 2002, SEA hired a person who is an expert on Muslim issues. The
person was hired on a temporary Schedule B appointment for a period of one year.
The person selected worked several days in September 2002 and has remained on
leave without pay since that time. In June 2003, the person requested and OES-
DRL/EX approved, a change to intermittent status from full-time. The appointee
has had outside commitments that have prevented his working full-time for DRL as
originally anticipated. The June request did not include any type of proposed
schedule or plan for working. The position uses FTE, which could be used more
productively for other bureau needs.

Informal Recommendation 1: The Bureau of Democracy, Human Rights, and
Labor should not renew the Schedule B appointment (S-85565-00), and if war-
ranted, retain the incumbent as a consultant.



OFFICE OF INTERNATIONAL LABOR AFFAIRS
    The response to the majority of requests for information pertaining to asylum
cases is to provide the Department of Justice immigration judges with a “Country
Profile” that describes country conditions with a focus on issues pertinent to
adjudicating asylum claims. Asylum adjudicators value these profiles. Rather than
dealing with hard copies, CRA staff could improve efficiency and better serve
customers if the profiles could be available electronically, as are the human rights
and religious freedom reports.

Informal Recommendation 2: The Bureau of Democracy, Human Rights, and
Labor should explore the possibility of making country profiles available electroni-
cally as well as explore other means by which efficiency and effectiveness could be
improved by taking advantage of technology.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   61 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



               The Bureau of Population, Refugees, and Migration deals with matters
       indirectly related to asylum claims and issues. Although CRA and PRM do share
       information on an as needed basis, currently, there is no systematic means by which
       DRL shares relevant material, such as drafts of updated country profiles, with
       PRM.

       Informal Recommendation 3: The Bureau of Democracy, Human Rights, and
       Labor should update country profiles and share with the Bureau of Population,
       Refugees and Migration these drafts and other materials, such as memos on indi-
       vidual cases that may impact on the development of refugee policy and laws in the
       United States.



       EXECUTIVE OFFICE
       Human Resources Division

               The human resources specialists have limited experience with the Foreign
       Service personnel program. Because almost one-third of DRL is Foreign Service,
       the specialists should become more involved and more knowledgeable about the
       Foreign Service system.

       Informal Recommendation 4: The Bureau of Democracy, Human Rights, and
       Labor should enroll the human resources specialists in the module on American
       personnel of the Human Resources course at the Foreign Service Institute.
            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)


       Informal Recommendation 5: (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)


           A number of DRL position descriptions need to be reviewed and updated.
       Duties and responsibilities of some employees have been changed without revising
       the position description. A vacancy review of every position should be done as
       part of the recruitment process. Position descriptions could be reviewed and
       updated during the annual performance evaluation cycles.




62 .                    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 6: The Bureau of Democracy, Human Rights, and
Labor should implement a routine maintenance review of all position descriptions
in accordance with 3 FAM 2638.2.

    Controls over time and attendance need to be tightened and procedures further
improved. Supervisors are not consistently responsible in monitoring and approv-
ing the time and attendance of their staff or counseling employees who may be
abusing leave. Annual leave requests are not always approved in advance, leave
request forms are not signed by the supervisor and turned in with the employee’s
timesheet, timesheets are not reviewed and signed in all cases by the supervisor,
some timesheets are missing from employees on detail, employees with negative
leave balances do not have approval for advanced leave, and the draft time and
attendance report is not always reviewed and signed by the PDAS.

Informal Recommendation 7: The Bureau of Democracy, Human Rights, and
Labor should issue standard operating procedures on time and attendance to ensure
strict adherence to management control standards and to submit an accurate report.



FINANCIAL MANAGEMENT DIVISION
     (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)


Informal Recommendation 8: (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)


    Complaints about delayed travel authorizations and slow travel voucher pro-
cessing were significant during the inspection. DRL has good standard operating
procedures on travel. However, there are performance problems with one em-
ployee, extremely heavy demand for travel services, travel requests made at the last
minute, improper claims on vouchers, travel vouchers submitted late, and vouchers
that are outstanding.

Informal Recommendation 9: The Bureau of Democracy, Human Rights, and
Labor should consider establishing a third, fully qualified travel assistant position to
meet the heavy workload demand.




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003              63 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 10: The Bureau of Democracy, Human Rights, and
       Labor should strengthen and reissue the standard operating procedures on travel.

            The DRL financial management division asks each office to prepare a “wish
       list” prior to the end of the fiscal year on items and projects that may not have
       been funded during the year. OIG found that some of projects and proposed items
       on the “wish list” were very costly and should have been included in the bureau’s
       budget request.

       Informal Recommendation 11: The Bureau of Democracy, Human Rights, and
       Labor financial management division should stop the “wish list” policy and adhere
       to an end-of-year procurement policy in accordance with 6 FAM 1224.



       GENERAL SERVICES DIVISION

          The DRL Bureau secretaries and staff assistants are not following standard
       operating procedures when ordering expendable and nonexpendable equipment and
       supplies.

       Informal Recommendation 12: The Bureau of Democracy, Human Rights, and
       Labor secretaries and staff assistants should follow established standard operating
       procedures when ordering equipment and supplies.

           One of the receiving clerks for DRL is the secretary in the general services
       division. However, receiving function duties are not in her work requirements.

       Informal Recommendation 13: The Bureau of Democracy, Human Rights, and
       Labor should update and revise the work requirements of the general services
       division secretary to include the receiving clerk duties.

       Informal Recommendation 14: The Bureau of Democracy, Human Rights, and
       Labor should update, revise and develop an electronic receiving worksheet for the
       nonexpandable property form to be used as a tool for inventory accountability or
       use standard Department receiving forms.




64 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    DRL needs better record keeping for the receiving, disposal, transfer, and
reconciliation of property to establish an accurate baseline for future inventories.

Informal Recommendation 15: The Bureau of Democracy, Human Rights, and
Labor should implement more effective procedures for property records, property
disposal records, property transfers, and inventory reconciliation.



INFORMATION MANAGEMENT DIVISION

   DRL does not maintain an inventory of tapes and disks and cannot ensure an
adequate supply to meet operational needs.

Informal Recommendation 16: The Bureau of Democracy, Human Rights, and
Labor should maintain an inventory of tapes and disks and conduct an annual
reconciliation.

    Standard operating procedures for the information management division of
DRL have been in draft for over a year but were never approved or distributed to
bureau staff. Standard operating procedures ensure that policies are properly
followed and help to minimize errors and confusion.

Informal Recommendation 17: The Bureau of Democracy, Human Rights, and
Labor should finalize and approve the standard operating procedures for the infor-
mation management division and make them available to all bureau staff and end
users.

   DRL storage rooms for computer equipment do not provide for adequate room
temperature.

Informal Recommendation 18: The Bureau of Democracy, Human Rights, and
Labor should ask the Department to maintain adequate room temperature in the
computer equipment storage rooms, as described in 5 FAM 842.1.

    Some of the computer equipment in DRL storage rooms is not properly labeled
as excess equipment for property disposal.

Informal Recommendation 19: The Bureau of Democracy, Human Rights, and
Labor should properly label as excess all computer equipment for property disposal
following guidelines in 6 FAM 237.


OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   65 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



          DRL does not conduct regular inventories on sensitive or easily stolen items,
       such as laptop computers, cellular telephones, and digital cameras.

       Informal Recommendation 20: The Bureau of Democracy, Human Rights, and
       Labor should conduct regular inventory and reconciliation of all sensitive or easily
       stolen items.



       EQUAL EMPLOYMENT OPPORTUNITY
           DRL has designated four employees as EEO counselors; however, the names
       are not widely publicized. Also, basic procedures on filing and processing an EEO
       complaint are not available.

       Informal Recommendation 21: The Bureau of Democracy, Human Rights, and
       Labor should publicize the names of the designated equal employment opportunity
       counselors along with basic procedures on filing and processing equal employment
       opportunity complaints.




66 .                 OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                       PRINCIPAL OFFICIALS

Assistant Secretary                                    Lorne W. Crane                     06/01
Principal Deputy Assistant Secretary                   E. Michael Southwick               11/02
Deputy Assistant Secretary                             J. Scott Carpenter                 10/01
Special Coordinator for Democracy
    and Human Rights                                   Elizabeth Dugan                    08/02
Ambassador at Large for International
    Religious Freedom                                  John V. Hanford, III               05/02
Office Director for International
    Religious Freedom                                  Thomas F. Farr                     06/99
Office Director for Strategic Planning
    and External Affairs                               Judith Baroody                     08/02
Office Director for International
    Labor Affairs                                      George White                       09/01
Office Director for Promotion of
    Human Rights and Democracy                         Robert P. Jackson                  07/02
Office Director for
    Multilateral Affairs                               Tatiana Gfoeller-Volkoff           08/01
Office Director for Country
    Reports and Asylum Affairs                         Cynthia Bunton                     01/01
Executive Director for
    Office of the Executive
    Director (OES-DRL/EX)                              Penny Williams                     09/01




OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003           67 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




68 .    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                              ABBREVIATIONS

                  AAAS        American Academy for the Advancement of Sciences
                   BCIS       Bureau of Citizenship and Immigration Services
                    BPP       Bureau Performance Plan
                    DAS       Deputy Assistant Secretary
           Department         Department of State
                DGHR          Bureau of Human Resources
                   DHS        Department of Homeland Security
                   DRL        Bureau of Democracy, Human Rights and Labor
            DRL/CRA           Office of Country Reports and Asylum Affairs
               DRL/IL          Office of International Labor Affairs
           DRL/MLA            Office of Multilateral Affairs
           DRL/PHD            Office of Human Rights and Democracy
            DRL/SEA           Office of Strategic and External Affairs
                   EEO        Equal Employment Opportunity
                    FSO       Foreign Service officer
                    FTE       Full-time equivalent
                       G      Under Secretary for Global Affairs
                 HRDF         Human Rights and Democracy Fund
                      IO      Bureau of International Organization Affairs
                        L     Office of Legal Adviser
                  NGO         Nongovernmental organization
                   OES        Bureau of Oceans and International Environmental
                              Scientific Affairs
         ES-DRL/EX            Office of the Executive Director, Bureau of Oceans
                              and International Environmental Scientific Affairs
                    OIG       Office of Inspector General



OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003   69 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED



         PDAS        Principal Deputy Assistant Secretary
           PMI       Presidential Management Intern
          PRM        Bureau of Population, Refugees and Migration
       UNCHR         UN Commission for Human Rights
         WAE          When actually employed




70 .    OIG Report No. ISP-I-03-48, Bureau of Democracy, Human Rights and Labor, September 2003


       SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
